<html>
<title> - H.R. 1606 AND H.R. 2388</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                        H.R. 1606 AND H.R. 2388
=======================================================================


                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            November 1, 2001

                               __________

                           Serial No. 107-72

                               __________

           Printed for the use of the Committee on Resources









 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                   _______

                           U.S. GOVERNMENT PRINTING OFFICE
75-982                         WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001















                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado
















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on November 1, 2001.................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate to Congress from the 
      Virgin Islands.............................................     2
    Clyburn, Hon. James E., a Representative in Congress from the 
      State of South Carolina....................................     3
        Prepared statement on H.R. 1606..........................     5
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     7
        Prepared statement on H.R. 2388..........................     8
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1

Statement of Witnesses:
    Carlino, August, President and Chief Executive Officer, Steel 
      Industry Heritage Corporation and the Rivers of Steel 
      National Heritage Area, and Chairman, Alliance of National 
      Heritage Areas, Homestead, Pennsylvania....................    29
        Prepared statement on H.R. 2388..........................    31
        Response to questions submitted for the record...........    42
    Roscoe, Dr. Wilma, Interim CEO and President, National 
      Association for Equal Opportunity in Higher Education, 
      Silver Spring, Maryland....................................    19
        Prepared statement on H.R. 1606..........................    21
    Stevenson, Katherine, Associate Director of Cultural Resource 
      Stewardship and Partnerships, National Park Service, U.S. 
      Department of the Interior, Washington, D.C................     9
        Prepared statement on H.R. 1606..........................    11
        Prepared statement on H.R. 2388..........................    12
    Waddell, Dr. John K., President, St. Paul's College, 
      Lawrenceville, Virginia....................................    26
        Prepared statement on H.R. 1606..........................    27

Additional materials supplied:
    Harris, Annie Clay, Executive Director, Essex National 
      Heritage Area, Statement submitted for the record on H.R. 
      2388.......................................................    37
        Response to questions submitted for the record...........    43















 LEGISLATIVE HEARING ON H.R. 1606, TO AMEND SECTION 507 OF THE OMNIBUS 
 PARKS AND PUBLIC LANDS MANAGEMENT ACT OF 1996 TO AUTHORIZE ADDITIONAL 
  APPROPRIATIONS FOR HISTORICALLY BLACK COLLEGES AND UNIVERSITIES, TO 
 DECREASE THE MATCHING REQUIREMENT RELATED TO SUCH APPROPRIATIONS, AND 
 FOR OTHER PURPOSES; AND H.R. 2388, THE NATIONAL HERITAGE AREAS POLICY 
                              ACT OF 2001.

                              ----------                              


                      Thurssday, November 1, 2001

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 11:20 a.m., in 
Room 2212, Rayburn House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.

 STATEMENT OF THE HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Welcome to the hearing on the Subcommittee 
on National Parks, Recreation & Public Lands, and thank you for 
taking the time to find the right building in the new building, 
and I appreciate that everybody is here.
    I am going to go right into my opening statement, and then 
we will go right into the first panel on the hearing.
    So the Subcommittee will come to order, and this morning 
the Subcommittee on National Parks, Recreation & Public Lands 
will hear testimony on two bills, H.R. 1606 and H.R. 2388. Our 
first bill is H.R. 1606, introduced by Congressman James 
Clyburn. Welcome, Mr. Clyburn of South Carolina.
    Mr. Clyburn. Thank you, sir.
    Mr. Radanovich. Which would amend the Omnibus Parks and 
Public Lands Management Act of 1996 to authorize additional 
appropriations for historically black colleges and universities 
and to decrease the matching requirements related to such 
appropriations.
    Our other bill is H.R. 2388, introduced by our Subcommittee 
colleague, Congressman Joe Hefley from Colorado. Joe, welcome, 
and would establish uniform criteria for designating national 
heritage areas by defining the circumstances under which a 
region warrants national heritage area designation, and by 
further defining standards for managing and maintaining that 
status.
    At this time I would like to ask unanimous consent that 
Congressman Clyburn be permitted to sit on the dias following 
his statement and/or testimony. Without objection, so ordered.
    I would also like to thank our witnesses for being here to 
testify on these bills, especially Mr. Carlino who has come to 
Washington twice to testify on H.R. 2388, only to be turned 
away due to the tragic events of September 11th, and then again 
on October 18th, when the Longworth Building was closed due to 
the anthrax matter. So your timing is not very good, but you 
are very welcome, and we are glad we actually have a meeting 
you can make.
    I now turn the time over to Mrs. Christensen for her 
opening statement.

STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE FROM THE 
                         VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. And I want to 
again commend you and the staff, both of our staffs, for making 
sure that the work of the Subcommittee continues despite just 
about all of us being out of our homes in Longworth and the 
Ford Building.
    Our meeting today will receive testimony on two important 
initiatives, H.R. 2388, which establishes a policy for the 
study and designation of national heritage areas, and H.R. 
1606, which provides for the preservation of historic buildings 
on the campuses of historically black colleges and 
universities.
    On H.R. 2388, I am glad that we were able to reschedule 
this hearing for yet again the third time. Hopefully the third 
time is the charm. This bill was introduced by our friend and 
former Subcommittee Chair, Mr. Hefley, and I remember some of 
the issues included being concerns brought up at other hearings 
that our Subcommittee had.
    National heritage area policy has not been a new issue for 
the Subcommittee. H.R. 2388 is the latest version in a line of 
legislation that goes back nearly a decade. Mr. Hefley has been 
working with all interested parties, and while each of those 
involved have issues and concerns with the bill as it is 
written, it nevertheless has provided us with a good starting 
point from which we can hopefully craft consensus legislation.
    The other bill before the Subcommittee this morning is H.R. 
1606, which I am proud to be an original co-sponsor of. It 
would provide a very important initiative which builds upon the 
work started in 1996 with the passage of the historically black 
colleges and universities historic preservation program. That 
program has been the catalyst for the preservation of historic 
structures at these institutions of higher learning, including 
the one in my district, the University of the Virgin islands. 
Now because we had these funds to help restore a historic 
plantation great house on the St. Croix campus, we have a home 
for our school of nursing which before had been scattered all 
over the island. We could never have done this without the help 
of this program.
    The money, though, has never measured up fully to the need, 
and so it is extremely unfortunate that all of the existing 
authorized funding has been used up while there are still many 
listed on the National Register of Historic Places, which 
despite the other fund-raising activities of these 
institutions, are still in need of the funding that this 
program brings to fully restore the national treasures that are 
on their grounds.
    Many of the buildings that are in line to be assisted by 
this program are integral elements of the school campuses, and 
as in our case, their preservation will not only preserve the 
history and spirit of these pioneering institutions, but 
provided needed classroom and other space as well.
    Mr. Chairman and colleagues, for many reasons our colleges 
and universities, all of which have made unique contributions 
to the history and the present of our nation, do not have the 
large endowments that some of their counterparts do. Yet many 
of them, when surveyed, had already fully or partially restored 
those buildings which had been identified as having special 
historic significance.
    The assistance which this program provides is critical, as 
is the requested change in the match. Without it, many of these 
properties which tell a history of the institutions themselves, 
but also of our country, would be lost.
    I want to take the opportunity to welcome the former chair 
of the Congressional Black Caucus, himself a proud graduate of 
an HBCU that I had the opportunity to attend the homecoming for 
last weekend, and as well as our other witnesses today, and I 
look forward to their testimony.
    I also want to welcome Congressman Bobby Scott of Virginia 
who is here with us this morning.
    Mr. Radanovich. Thank you, Mrs. Christensen. Any other 
opening statements from anybody else on the panel? If not, we 
will get right to it.
    Again, the first part of the hearing is on H.R. 1606, which 
is a bill to amend section 507 of the Omnibus Parks and Public 
Lands Management Act of 1996, to authorize additional 
appropriations for historically black colleges and 
universities.
    Mr. Clyburn, welcome. And as we have taken care of earlier, 
you are more than welcome after your testimony to set with us 
on the dias.

  STATEMENT OF THE HON. JAMES E. CLYBURN, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Clyburn. Thank you very much, Mr. Chairman. You are so 
kind. I am pleased to do that.
    Thanks to you, Chairman Hansen, with whom I worked for a 
long time on this legislation, and to the members of the panel 
for allowing me to be here today.
    I want to express my gratitude to all of you for holding 
this hearing today. I very much appreciate the opportunity to 
testify on behalf of my legislation to expand an authorization 
for the Historical Black Colleges and Universities Historic 
Preservation Program.
    As a former school teacher, I have always possessed an 
acute appreciation for history, and have enjoyed its study for 
many years. That is one reason I was so pleased you introduced 
the legislation establishing the South Carolina National 
Heritage Corridor. Many of you who were on the Committee at 
that time may remember my good friend, Congressman Lindsey 
Graham, joined me in testimony before this Committee in support 
of that legislation, which Congress authorized in 1995.
    I worked to appropriate funds for a 3-year study of the 
Gullah culture along the sea islands of South Carolina and 
Georgia. This is a culture very unique and very much at threat 
of extinction, and hopefully this will give us recommendations 
on how to preserve and interpret what most scholars say is the 
closest African roots of any native-born Americans.
    I worked very closely for many years on many issues with 
Dick Moore, the National Trust for Historic Preservation, and 
was overjoyed when the National Trust, acting on the nomination 
of the Southeast Regional African-American Preservation 
Alliance, listed one of the three HBCU campuses as a category 
on his 1998 list of the 11 most endangered historic sites in 
the country.
    I tell you these things so you can know how very important 
historic preservation is to me personally. But of all the 
things I have worked on in preservation, I am most proud of 
HBCU Historic Preservation Program. Many of these campuses date 
back a century or more. The history contained within the 
hallowed halls of these institutions is as rich and diverse as 
the students who pass through them.
    Dr. John Waddell is here today and will testify as to the 
profound impact this program has had on Allen University in 
Columbia, South Carolina.
    I want to tell you what it meant to me as a student of 
history, to see a treasure such as Arnett Hall on Allen's 
campus brought back from the brink of destruction. This 
structure was designed by an African-American architect, built 
by the students themselves, and completed in June 1891.
    The time we were authorizing the original $29 million for 
this program, the South Carolina Department of Archives and 
History, our State's SHPO, listed Arnett Hall as the most 
endangered historic site in South Carolina. I am happy to 
report today the building has been saved, preserved to the 
Secretary of the Interior's standards, and shines as a beacon 
in that part of Columbia. And the same is true for Ministers 
Hall on Claflin University's campus in Orangeburg, South 
Carolina, and will soon be true for Massachusetts Hall on the 
campus of Voorhees College in Denmark.
    In 1997, the Congressional Black Caucus requested the GAO 
to conduct a study to determine the projected cost of 
preserving all threatened historic sites at the 103 HBCUs. I 
was asked to coordinate that study with the GAO. I worked very 
closely with Dr. Wilma Roscoe, who you will be hearing from 
very shortly, to get that study done.
    The study took one solid year to complete, but it was very 
comprehensive, and very objective. The GAO identified 712 
historic sites on the campuses, with a projected preservation 
cost of $759 million. That's a lot of money, even in this town. 
But the need has been documented.
    The bill before you today would authorize 70 percent of 
that total. The vast majority of these colleges have had a very 
difficult time raising a dollar-for-dollar match. Consequently, 
many of these college presidents would prefer a grant, but I 
believe it is important for the schools themselves to feel 
vested in the project. So my bill requires a 30 percent match. 
As you may know, the Park Service allows 70 percent of funding 
for planning and survey projects funded by the Historic 
Preservation Fund, so there is a precedent for this ratio, and 
it is a formula that is sorely needed.
    Now I now that there are those who question why we should 
authorize a program at such a large amount over what the 
Preservation Fund has authorized. I have three responses to 
such a question.
    The first is fundamental. I firmly believe the Preservation 
Fund is underauthorized and I know it is underappropriated. If 
it were up to me, the Preservation Fund would be authorized and 
appropriated at $500 million a year.
    My second response is that this program has proven its 
merit, the need has been documented and, most important, 
without this program's expansion we as a nation will lose many, 
many historically and architecturally significant treasures. 
This money is just not available to save them.
    But my third and paramount response, Mr. Chairman, is this 
authorization will allow the campuses, the structures 
identified for preservation, to do strategic planning. If these 
schools were able to point to the Federal Government's 
commitment to cover 70 percent of the preservation costs, 
alumni and potential donors would be more amenable to 
contributing the matching funds for the projects.
    Mr. Chairman, should this bill become law, it would be 
unrealistic for anyone to expect full appropriations in the 
near future. It will take many years and a strong commitment to 
meet the need the GAO has documented. But without this bill, we 
cannot even begin.
    Mr. Chairman, I know the Subcommittee's support for 
preservation is strong, and I pledge to stand shoulder to 
shoulder with you to do all we can for the historic 
preservation community. And I want you to know that there is no 
issue of jurisdiction before this full Committee that is more 
important to the Congressional Black Caucus, and to me 
personally, than H.R. 1606. I will be happy to respond to any 
questions you or members of the Committee may have. And I thank 
you for allowing me to be here.
    [The prepared statement of Mr. Clyburn follows:]

 Statement of the Hon. James E. Clyburn, a Representative in Congress 
                    from the State of South Carolina

    Mr. Chairman, I want to express my gratitude to you and Chairman 
Hansen for holding this hearing today. I very much appreciate the 
opportunity to testify on behalf of my legislation to expand the 
authorization for the Historically Black Colleges and Universities 
Historic Preservation Program.
    As a former schoolteacher, I have always possessed an acute 
appreciation for history and have enjoyed its study for many years. 
That is one reason I was so pleased to introduce the legislation 
establishing the South Carolina National Heritage Corridor. Many of you 
who were on the Committee at the time may remember that my good friend 
Congressman Lindsey Graham joined me in testimony before this Committee 
in support of that legislation which Congress authorized in the 1995 
Poseidon Bill.
    I worked to appropriate funds for a three-year study of the Gullah 
culture along the sea islands of South Carolina and Georgia. This is a 
culture very unique and very much at threat of extinction, and 
hopefully, this study will give us recommendations on how to preserve 
and interpret what most scholars say is the closest African roots of 
any native born Americans.
    I have worked very closely for many years and on many issues with 
Dick Moe of the National Trust for Historic Preservation, and was 
overjoyed when the National Trust - acting on the nomination of the 
Southeast Regional African American Preservation Alliance - listed the 
103 HBCU campuses as a category on it's 1998 list of the 11 most 
endangered historic sites in the country.
    I tell you these things so you can know how very important historic 
preservation is to me personally. But of all the things I have worked 
on in preservation, I am most proud of this HBCU Historic Preservation 
Program. Many of these campuses date back a century or more. The 
history contained within the hallowed halls of these institutions is as 
rich and diverse as the students who passed through them. Dr. John 
Waddell is here today and will testify as to the profound impact this 
program has had on Allen University in Columbia, South Carolina. But I 
want to tell what it meant to me, as a student of history, to see a 
treasure such as Arnett Hall on Allen's campus saved from the brink of 
destruction. This structure was designed by an African-American 
architect, built by the students themselves, and completed in June 
1891.
    At the time we were authorizing the original $29 million for this 
program, the South Carolina Department of Archives and History, our 
state's SHPO, listed Arnett Hall as the most endangered historic site 
in South Carolina. I am happy to report today the building has been 
saved, preserved to the Secretary of the Interior's standards, and 
shines as a beacon in that part of Columbia. The same is true for 
Ministers Hall on Claflin University's campus in Orangeburg, South 
Carolina, and Massachusetts Hall on the campus of Voorhees College in 
Denmark.
    In 1997, the Congressional Black Caucus requested the GAO to 
conduct a study to determine the projected cost of preserving all 
threatened historic sites at the 103 HBCU's. I was asked to coordinate 
that study with the GAO. I worked very closely with Dr. Wilma Roscoe, 
who you will be hearing from very shortly, to get that study done.
    The study took one solid year to complete, but it was very 
comprehensive and very objective. The GAO identified 712 historic sites 
on the campuses, with a projected preservation cost of $755 million. 
That's a lot of money, even in this town. But the need has been 
documented.
    The bill before you today would authorize 70% of that total cost. 
The vast majority of these colleges have had a very difficult time 
raising a dollar for dollar match. Consequently many of these college 
presidents would prefer a grant, but I believe it is important for the 
schools themselves to feel vested in the project, so my bill requires a 
30% match. As you may know, the Park Service allows 70% of funding for 
planning and survey projects funded from the Historic Preservation 
Fund, so there is a precedent for this ratio and it is a formula that 
is sorely needed.
    Now I know there are those who question why we should authorize a 
program at such a large amount over what the Preservation Fund is 
authorized. I have three responses to such a question.
    The first is fundamental--I firmly believe the Preservation Fund is 
under authorized and I know it is under appropriated. If it were up to 
me, the Preservation Fund would be authorized and appropriated at $500 
million a year.
    My second response is that this program has proven its merit, the 
need has been documented, and most important, without this program's 
expansion, we as a nation will lose many, many historically and 
architecturally significant treasures. The money is just not available 
to save them.
    But my third and paramount response, Mr. Chairman, is this 
authorization will allow the campuses with structures identified for 
preservation to do strategic planning. If these schools were able to 
point to the federal government's commitment to cover 70% of the 
preservation costs alumni and potential donors would be more amenable 
to contributing the matching funds for the projects.
    Mr. Chairman, should this bill become law it would be unrealistic 
for anyone to expect full appropriation in the near term. It will take 
many years and a strong commitment to meet the need the GAO has 
documented. But without this bill becoming law, we cannot even begin.
    Mr. Chairman, I know the Subcommittee's support for preservation is 
strong, and I pledge to stand shoulder to shoulder with you to do all 
we can for the historic preservation community. And I want you to know 
there is no issue of jurisdiction before this full Committee that is 
more important to the Congressional Black Caucus, and to me personally, 
than H. R. 1606. I will be happy to respond to any questions you or the 
committee may have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Clyburn, for your opening 
statement, and again please feel free to join us on the dias.
    Mr. Clyburn. Thank you.
    Mr. Radanovich. It is kind of a strange thing, but we are 
going to be dealing with both bills at one time. So the next 
two panels will be speaking to your issue as well as the next 
issue, so if there are questions for Mr. Clyburn, then we are 
going to go on to Mr. Hefley, who will do his opening statement 
regarding H.R. 2388, which is the National Heritage Areas 
Policy Act of 2001, and then we will invite our next two panels 
up to deal with both bills at the same time.
    So, Mr. Hefley, welcome.

STATEMENT OF THE HON. JOEL HEFLEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Hefley. Thank you, Mr. Chairman, and thank you for your 
patience, and thank you for rescheduling. And I want to thank 
again, as you did, Mr. Clyburn for coming again. I was 
embarrassed to invite him back. We had one of our witnesses who 
had come twice before all the way from Boston, and was here 
actually on the 11th, and bless her heart, it took her 30 hours 
to get home, or something. So this has been a bit of a struggle 
to get this bill before the Committee, but I am very 
appreciative that you were tenacious enough and we did it.
    I also would like to give credit to my predecessors with 
this. Mr. Vento, who was Chairman of this Committee, was a 
great champion of this, and piqued my interest in it as I was a 
member of the Committee during his reign here, and also Mr. 
Hansen, who worked very hard on this subject over the years.
    I guess today's hearing is just the latest chapter in a 
long story because the heritage areas really emerged, I think, 
in the mid-1970's as an invention of local groups and 
cooperative appropriators, and properly done, heritage areas 
proved to be a way that state and local groups could access the 
expertise and prestige of the National Park Service to preserve 
areas of unique national interest.
    Illinois and Michigan Canal and the Blackstone River Valley 
National Heritage Corridors are two examples of areas which 
have not only preserved important natural and historical 
resources, but which have improved local economics through 
tourism. But as these heritage areas proliferated, the Park 
Service continued to deal with them one at a time in the 
complete absence of any kind of a uniform policy. As one Park 
Service official said, we don't really know what these are.
    By 1991, it was estimated that 100 state and local heritage 
areas existed nationwide. Today the figure is closer to 150. At 
the national level Congress has achieved some semblance of a 
policy through a gentlemen's agreement between Chairman Hansen 
and Mr. Regula, the former Chairman of the Parks Appropriation 
Subcommittee.
    Simply stated, that agreement states that the national 
heritage areas are limited to 10 years and $10 million in 
direct Federal involvement and local control. These 
stipulations mirror heritage legislation that Mr. Vento and I 
worked on many years ago.
    As we shall hear today, areas which have followed these 
guidelines have worked pretty well, and some of the areas which 
have been created without these guidelines have not done nearly 
as well.
    We will also hear from one of the witnesses today of the 
importance of business planning and national significance in 
creating these heritage areas. In Pennsylvania, prospective 
heritage areas are required to submit a business plan as part 
of their proposals. This ensures the champions of such areas 
take a realistic, long-term view of their proposals.
    Further, we will hear discussion of the issue of national 
significance. As I said, there are 150 or so heritage areas 
nationwide. A relatively small percentage of those are national 
ones, and this is probably as it should be. These areas that 
carry the national title should preserve something meaningful 
to the entire Nation.
    Former Park Service Director Roger Kennedy said of park 
units that every park proposal is important to someone. And, 
yes, but we shouldn't pay, probably, for all of them. I want to 
see us codify the Hansen-Regula agreement as a policy which has 
worked.
    The bill before us today is a result of almost 7 years of 
work and was crafted with the help of the Park Service and many 
interested groups. We have tried to consult, Mr. Chairman, with 
everybody we can think of.
    Let me state that we are or should not be in the business 
of economic development. That is not the reason you should 
create these things, although that is a byproduct of them 
sometimes.
    We also shouldn't be in the business of making Members of 
Congress look good because they took something back home in the 
form of a heritage area. But we are in the business of 
preserving our history and culture in this country, and 
heritage areas are one of the ways of doing this. We simply 
need a logical process for getting this job done, and that is 
what this bill seeks to do, and I look forward to the witnesses 
today, Mr. Chairman. Thank you.
    [The prepared statement of Mr. Hefley follows:]

 Statement of Hon. Joel Hefley, a Representative in Congress form the 
                           State of Colorado

    Mr. Chairman, I'd like to thank you for scheduling this hearing 
today on my bill, H.R.2833, the National Heritage Areas Policy Act.
    Mr. Chairman, when I first introduced this bill five years ago I 
was roundly denounced by people and groups I usually count among my 
supporters. The Pacific Legal Foundation questioned why we needed a 
heritage area policy at all and suggested my bill would lead to runaway 
government spending and land acquisition. Chuck Cushman of the League 
of Private Property Voters said I was establishing a new government 
program that would give legitimacy to the heritage area concept. 
``We'll fight them one at a time,'' he vowed.
    Well, that was 1996. Since that time, this Congress has established 
at least nine national heritage areas. Mr. Cushman and his colleagues 
have fought--and lost--all of them over the past five years.
    When I introduced this bill five years ago, conventional wisdom set 
the number of state or regional heritage areas at 100. Today, that 
number is estimated at 150. The state of Pennsylvania alone has 11 and 
there are at least four such proposals in my home state of Colorado. 
This concept is not going to go away nor, I am sure, should it. There 
are heritage areas around the country which have revitalized the local 
economy while preserving those areas'' unique flavor. There are also 
some which has been dismal failures. Those are largely areas which were 
the result of political wish lists instead of grassroots support-
building.
    There has been a change in the heritage area concept over the past 
five years. Beginning with those eight bills in 1996, heritage areas 
began to resemble what I'd outlined in my 1996 heritage areas bill--10 
years, $10 million, limited Park Service involvement, local control and 
planning, periodic renewals of local support. And, as we will hear from 
some of our witnesses today, that ``non-policy'' has worked for 
everyone. The most recent heritage areas have thrived while keeping 
government spending at a minimum.
    To a large degree, this uniformity has been the result of a 
gentlemen's agreement between this subcommittee and its appropriations 
counterpart. My fear is, What happens when that agreement no longer 
holds? My guess is we will go back to the glorious days of individually 
crafted heritage areas, each specifically tailored to the needs of 
their congressional sponsors, with no limits on federal involvement or 
spending. ``Unique'' heritage areas which can swallow almost half-a-
billion dollars over 15 years or masquerade as national parks. Areas 
which may go years after their authorization without a single 
constructive step toward fulfilling their mission.
    The bill before you builds on our past work on this subject and was 
developed with the cooperation of the Park Service and other interested 
groups. What I would like to see is codification of the formula that 
has served us so well for the past three years--10 years, $10 million, 
local control, limited federal involvement. I'll be willing to make 
whatever changes are necessary to bring that about.
    Some time ago, I lobbied a few of my western colleagues to support 
this bill. I pointed out the growth of these areas and Chairman Hansen 
mentioned that heritage areas ``could bleed us white.'' In the absence 
of a federal policy, they could indeed. We are shirking our duties if 
we do not frame such a policy. Fighting them one at a time sounds good 
but is a recipe for losing.
    With that I'll close, Mr. Chairman, and I look forward to hearing 
today's testimony.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Hefley. And now I would like 
to introduce Ms. Katherine Stevenson, Associate Director of 
Cultural Resources, Stewardship and Partnerships of the 
National Park Service, of course in the Department of Interior. 
Good morning, Ms. Stevenson. Welcome.
    Ms. Stevenson. Thank you very much.
    Mr. Radanovich. Welcome. And you certainly may begin your 
testimony. If you would be mindful of--I am not a real hard-
core guy on these time clocks, but if you could kind of keep 
yourself around 5 minutes, that would be great.
    Ms. Stevenson. Yes, sir, I would be pleased to do that.

   STATEMENT OF KATHERINE H. STEVENSON, ASSOCIATE DIRECTOR, 
 CULTURAL RESOURCE STEWARDSHIP AND PARTNERSHIPS, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Ms. Stevenson. First, thank you very much for the 
opportunity to be here before you to present the views of the 
Department of the Interior on H.R. 2388 and H.R. 1606.
    With your permission, I would like to summarize my 
testimony and submit the entire text for the record.
    Mr. Radanovich. Surely.
    Ms. Stevenson. The Department sincerely appreciates the 
efforts of the Committee staff, and particularly Mr. Hefley's 
staff, to work with the National Park Service on the Heritage 
Areas bill. You know that we agree that a bill to create--that 
meets the needs of the heritage areas across the country is a 
very important bill indeed.
    You all have been very willing to discuss various 
alternatives and have integrated many of the changes that we 
have recommended into this bill.
    It is clear that we share the same goal, the goal of 
creating a framework for the establishment and management of 
national heritage areas. The bill makes great strides to 
accomplish this goal.
    With that in mind, we have a couple of concerns about 
language in the bill. This may reflect our misunderstanding of 
intent, and we would welcome further discussion.
    First, we worry about the complexity of the approval 
process. While we fully support inclusiveness and recognize 
that heritage areas cannot be successful without broad local 
support, we are concerned about the many steps proposed for the 
approval process. We worry that increased approval steps may 
overly complicate the process.
    As an example, in the Hudson River Valley area, were this 
bill in effect, it would require the approval of approximately 
290 municipalities of the feasibility study, the management 
plan, and the local coordinating entity, resulting in almost 
900 approvals.
    Second, we are unclear about the intended role of the 
National Park Service. I believe some of the most successful 
heritage areas are those with a full partnership with the 
National Park Service. This permits the heritage area and the 
National Park Service and other partners to work toward mutual 
goals, broaden the involvement, and facilitate connections to 
other heritage areas, to parks, and other Federal agencies.
    This bill as written appears to limit the role of the 
National Park Service to a pass-through grant provider, rather 
than a convener, a partner or a mentor. We would like to 
continue to work with the Committee to clarify these and some 
other relatively minor issues.
    H.R. 1606 authorizes the Secretary to make matching grants 
of $530 million to HBCUs to preserve and repair historic 
buildings. Regrettably, the Department must oppose this bill. 
We are concerned that when dollars are apportioned to carry out 
the act, it will reduce the modest amount available for States 
and Indian tribes to distribute according to need as they 
identify that need.
    Since 1966, the Department has been strongly committed to 
the principle that the States and the tribes know their 
historic resources and are best suited to determine the 
priorities for allocation of grant funds.
    Second, we believe that the provision to lower the non-
Federal matching share is unnecessary. Presently the Secretary 
has the authority to waive or to adjust the share on a case-by-
case basis.
    One HBCU has already supplied the requisite explanation and 
has been approved for a lower matching share. We anticipate 
other data submissions and likely other approvals for a reduced 
match.
    Finally, the National Park Service has worked very closely 
with HBCU since 1995 to identify their highest priority needs 
and to support their efforts to preserve historic structures. 
Since 1995, 34, or fully one-third of all HBCUs, have received 
allocations from the Historic Preservation Fund. The bureau and 
the Department commit to continue technical assistance directly 
to HBCUs to assist the universities and colleges in preserving 
their historic structures.
    In addition to this continued assistance on the grant side, 
we will assure that the HBCUs receive special notice of any 
other NPS grant funds, especially the Save America's Treasures 
grants, for which they may apply.
    This concludes my prepared testimony. I would very happy to 
answer any questions that any of you might have. Thank you.
    [The prepared statements of Ms. Stevenson follow:]

   Statement of Katherine H. Stevenson, Associate Director, Cultural 
     Resource Stewardship and Partnerships, National Park Service, 
                Department of the Interior on H.R. 1606

    Thank you for the opportunity to present the Department of the 
Interior's views on H.R. 1606, which authorizes the Secretary of the 
Interior to make matching grants of $530 million to historically black 
colleges and universities to preserve and repair buildings listed on, 
or eligible to be listed on, the National Register of Historic Places 
under the authority of Section 507 of Public Law 104-333. The bill also 
includes a provision that would permit the non-Federal matching share 
to be reduced from 50 percent to 30 percent of total costs of the 
project.
    The Department opposes H.R. 1606, because it would place large, new 
financial obligations on the Federal Government to take care of non-
federal facilities at a time when funds are limited and demands to 
maintain existing federal facilities are growing. We appreciate efforts 
to preserve significant historic buildings on the campuses of 
historically black colleges and universities and the dedicated work of 
the members of the Congressional Black Caucus on this bill, but the 
Department's priorities are protecting and preserving national parks, 
monuments, refuges, public lands, and Indian schools.
Background
    In 1988, the National Park Service cosponsored a survey and 
assessment of historic properties on the campuses of historically black 
colleges and universities. The intent of the survey was to identify, 
assess, and prioritize historic properties and initiate a coordinated 
effort to support the restoration of the properties that were deemed 
the highest priority. Building on this survey, the General Accounting 
Office conducted a study in 1997-98 to identify historic properties at 
the 103 historically black colleges and universities, and to provide 
cost estimates for these restorations. Respondents identified 712 
historic properties (mostly buildings), of which 323 were already on 
the National Register of Historic Places. According to the information 
provided, an estimated $755 million is needed to restore and preserve 
the 712 historic properties.
    In Section 507 of Public Law 104-333, Congress authorized $29 
million, which was eventually appropriated for the preservation and 
restoration of historic buildings at historically black colleges and 
universities, and specified that of the amount to be appropriated, $23 
million in grants would be earmarked for thirteen particular colleges 
and universities. Since this law was passed, the Administration 
included funding for this program in its annual budgets. Funding 
provided in the fiscal year 2001 Interior Appropriations Act, Public 
Law 106-291, completed the 12 ongoing projects authorized in the 104th 
Congress.
Legislation
    The Department has major concerns with H.R. 1606. First, we are 
concerned that when funds are appropriated to carry out this Act, it 
would reduce the overall amount of funds available from the Historic 
Preservation Fund to States and Indian tribes. The Department strongly 
supports the principle that States not the Federal government are best 
suited to determine the highest priorities for awarding grants under 
the Historic Preservation Fund. Under the current competitive process, 
the Department allocates funds to States and Indian tribes who approve 
grants to projects that meet certain criteria. There are many very 
worthy projects, including numerous other historic buildings, in need 
of assistance from the Historic Preservation Fund.
    Second, the Department believes that the provision to lower the 
non-Federal matching share under H.R. 1606 is unnecessary. The 50 
percent non-Federal matching share for grants under the Historic 
Preservation Fund is required under the National Historic Preservation 
Act. We recognize that, in some cases, raising a 50 percent non-Federal 
matching share can be difficult. In fact, under Public Law 104-333, the 
Secretary currently is authorized to waive the matching requirement on 
a case-by-case basis if the circumstance is an extreme emergency or 
such a waiver is in the public interest. To date, only one historically 
black college or university has submitted a specific proposal for a 
waiver of the matching requirement from the Secretary. The school 
demonstrated that it had a viable project that was in the public 
interest, and thus, the Secretary granted the waiver. We believe that 
this case-by-case approach is more appropriate than a general reduction 
in the matching requirement.
    Third, we note that previously appropriated funds have been 
expended at a very slow rate, suggesting that applicants have not been 
able to find sufficient matching funds. Of the $29 million authorized 
by Public Law 104-333, only $7 million has been expended thus far. The 
National Park Service has worked closely with each applicant throughout 
the process. Site visits also have been conducted at each college and 
university that has an approved historic grant. Many of the colleges 
and universities that have approved grants are now ready to move 
forward with raising the non-Federal matching share and hiring 
contractors to begin preliminary site work. We plan on contacting each 
of these colleges and universities to discuss ways that the National 
Park Service can assist them in spending the $22 million that has 
already been appropriated.
    For the above reasons, the Department opposes H.R. 1606.
    There are other sources of funding for historic preservation work 
that could be available to historically black colleges and 
universities. One example is the Save America's Treasures program that 
awards grants for preservation and conservation work on nationally 
significant intellectual and cultural artifacts and nationally 
significant historic structures and sites. We will work with 
historically black colleges and universities to ensure they receive 
special notice on when the application process begins on the fiscal 
year 2002 Save America's Treasures competitive grants program and 
provide any needed guidance and assistance.
    The Department recognizes that historic buildings on these campuses 
are important national historic treasures worthy of our care and 
attention. We would be pleased to work with the Committee to address 
the concerns outlined in our testimony.
    This concludes my prepared testimony, Mr. Chairman. I would be 
pleased to answer any questions you or other committee members may 
have.
                                 ______
                                 

Statement of Katherine Stevenson, Associate Director, Cultural Resource 
Stewardship and Partnerships, National Park Service, Department of the 
                         Interior on H.R. 2388

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department on H.R. 2388. This 
bill creates a definition and a structure for the study, designation, 
management, funding, and sunset of national heritage areas.
    The Department sincerely appreciates your efforts to work with the 
National Park Service to create a bill that meets the needs of heritage 
areas across the country. You have been very willing to discuss various 
alternatives and have integrated many of the changes the National Park 
Service recommended into this bill. The Department supports the 
creation of a framework for the establishment and management of 
national heritage areas as proposed in H.R. 2388. Such a framework is 
needed to maintain a rigorous standard, so that future national 
heritage areas meet all the appropriate criteria. We also believe it is 
important that heritage areas continue to be initiated and supported at 
the local level. The Administration will follow up with suggested 
amendments to encourage the establishment of locally supported heritage 
areas.
    Heritage areas implement that part of the National Park Service's 
mission statement that speaks to cooperation and partnership ``...to 
extend the benefits of natural and cultural resource conservation and 
outdoor recreation throughout this country and the world.'' Heritage 
areas embody partnerships that blend education, cultural conservation, 
and resource preservation, recreation and community revitalization, 
which are all integral parts of our work.
    Interest in heritage areas and corridors is growing. In the past 
two years, the number of national heritage areas has increased from 18 
to 23. In the 107th Congress so far, nine bills have been introduced to 
study the feasibility of heritage area designation or to actually 
designate a region. In addition, the National Park Service has nine 
feasibility or special resource studies already underway related to 
potential heritage areas including the Upper Housatonic River Valley in 
Massachusetts and Connecticut, and the Crossroads of the American 
Revolution in New Jersey. It is important to emphasize, however, that 
funding for heritage areas is limited, so new areas can only be funded 
to the extent that established areas become self-sufficient and no 
longer need the same level of financial support. Finally, there has 
been a positive growth in state heritage programs including newcomers 
like Maryland, Louisiana, and Utah.
    Interest in the heritage areas is growing because they work. The 
heritage area strategy is based on a shared vision for the future 
grounded in the best of the past. At their best, these heritage 
partnerships engage local governments who have never planned for the 
future around a shared past. At their best, they bring together a host 
of federal, state, and local partners to remediate brownfields, 
reinvigorate main streets, institute educational curriculum that draw 
from local history, and demonstrate that environmental lessons are just 
outside our back door. Heritage partnerships encourage regional 
interpretation and reinvigorate local tourist offerings with real and 
authentic experiences.
    The recent National Park System Advisory Board report ``Rethinking 
the National Parks for the 21st Century'' hails heritage areas for 
their Federal and local partnerships to conserve and commemorate 
distinctive regional landscapes. It recognizes the benefits in 
preserving resources outside of park boundaries by the people who live 
there with the assistance of the National Park Service.
    For these reasons, we believe that generic legislation would be 
valuable as a way to provide for the development and designation of 
national heritage areas. A number of provisions of H.R. 2388 reflect 
our cooperative effort to develop such a program, including the 
contents of a feasibility study, the need for public involvement 
throughout the process, the elements of a management plan, and the need 
to effectively identify a management entity or local coordinating 
entity. All of these principles would provide useful guidance to 
communities in developing a strategy to create a heritage area and to 
Congress in evaluating an area for designation or funding. H.R. 2388 
provides some good, solid building blocks for a program, but more could 
be done to ensure the process maintains high standards for new areas 
and relies on the support and initiative of local communities.
    The National Park Service has been looking at the issue of heritage 
conservation for many years and is now engaged in various levels of 
management and technical assistance in heritage partnerships located 
all around the country. In the past, we worked with members of Congress 
and communities on legislation similar to H.R. 2388 that, if enacted, 
would have provided general guidelines for the establishment and 
management of national heritage areas. We believe that it is a valuable 
goal to establish a national program that enforces these guidelines 
while encouraging communities that take the initiative to protect their 
natural, cultural, historic, scenic, and recreational resources.
    The Administration would like to follow up in writing with specific 
recommendations on H.R. 2388. For example, we would like to clarify 
that the role of the National Park Service in the heritage area program 
is to assist--not lead--communities in assessing their resources and in 
planning for their conservation and interpretation. As well, we would 
like to clarify the obligations of other federal agencies under section 
11(b) and reconcile the tension between the language of sections 13(a) 
and 13(b).
    We strongly believe that attention must be paid to maintaining 
standards for future heritage area designations. In our work with 
heritage area studies and designations, we have begun to incorporate 
provisions found in H.R. 2388, such as basing our feasibility studies 
on criteria outlined in the bill. We very much appreciate the interest 
of this committee and look forward to working with you to identify the 
parameters necessary to make heritage areas successful and accountable.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Ms. Stevenson.
    The regular order of things is that I get 5 minutes and 
then Mrs. Christensen gets 5 minutes. I am going to defer to, 
since we have both sponsors of the bills here, my questions to 
both Mr. Clyburn and Mr. Hefley in my 5 minutes. I am not sure 
how we want to do this, but I want to make sure that you have 
the opportunity. But that has to be with the consent of the 
full Committee to ask the questions, so if there is no 
objection, then I guess we will do it this way. I will give Mr. 
Hefley 5 minutes and then Mrs. Christensen will give Mr. 
Clyburn 5 minutes. And again I am not, you know, a real tough 
guy on this thing, but stick to 5 minutes, if you can. Mr. 
Hefley.
    Mr. Hefley. Thank you very much, Mr. Chairman.
    Ms. Stevenson, thank you for being here today, and your 
testimony, and thank you for working with us on this, because 
we have tried to work with the Park Service on it. And you 
point out two very important areas, I think, that we do want to 
solve before this bill moves forward.
    We certainly don't want to throw up artificial barriers to 
creation of heritage areas. If it is something significant that 
should be preserved, then we want it to be done, and not make 
it so difficult that people throw up their hands in 
frustration. And what you described in the Hudson River Valley, 
we don't want that.
    Do you have suggestions on both of these? Also part of the 
reason for this bill is to define the role of the Park Service, 
so if we are not doing that correctly, we want to do that.
    Ms. Stevenson. Thank you, sir.
    Mr. Hefley. Will you, either now or later, have specific 
suggestions about how we can solve your concerns about this?
    Ms. Stevenson. Yes, sir, we do. We will be happy to provide 
them to you. We want to make sure that they are absolutely 
correct before we bring them up there.
    Mr. Hefley. Okay.
    Ms. Stevenson. Some of them are extremely technical in 
nature, and would bore everybody to death, and others reflect 
changes we think would correct these two issues that we 
identified.
    Mr. Hefley. Okay. Well, we certainly want to work with you 
on that.
    Ms. Stevenson. Thank you, Mr. Hefley.
    Mr. Hefley. Also, does the Park Service feel that the chief 
executive in a State, and the State itself, should have a major 
role in these designations?
    Ms. Stevenson. A major role, absolutely.
    Mr. Hefley. But as a partner?
    Ms. Stevenson. As a partner. It is hard to define--the 
emphasis has to come from the local community. Our experience 
has been if the local community doesn't support a heritage 
area, it falls of its own weight. What we don't want is for 
there to be a conflict between the local area and the chief 
executive, perhaps different parties, perhaps different 
intentions, and not have the opportunity for them to work it 
out without a veto power because the Congress and the local 
groups usually have a very good sense of what is going to be 
successful. So we want to see that be able to work out without 
undue animosity.
    Mr. Hefley. Mr. Chairman, I think that is all the questions 
I have at this point. I will give back some of my time.
    Mr. Radanovich. Okay. Thank you. Mr. Clyburn, or Mrs. 
Christensen. I am not real good on procedure.
    Mrs. Christensen. I will yield to my colleague to begin the 
questioning.
    Mr. Clyburn. Thank you very much, Madam Ranking Member, and 
Mr. Chairman, thank you so much.
    I was kind of hoping that Chairman Hefley would give me his 
time because I do have some questions.
    [Laughter.]
    Mr. Radanovich. Well, you can ask on both bills, if you 
want to.
    Mr. Clyburn. Thank you very much. I am very, very concerned 
about the historic corridors, as you know. I do have some 
questions for Ms. Stevenson.
    Ms. Stevenson. Sure.
    Mr. Clyburn. Ms. Stevenson, are you aware of how many 
historic buildings have been saved by this program?
    Ms. Stevenson. I have a list of all the universities, sir, 
but I don't have a list of every building that has been 
assisted in every university. I could provide that for you.
    Mr. Clyburn. Well, I do have the list, but I am trying to 
get some stuff in the record here.
    Ms. Stevenson. I see.
    Mr. Clyburn. I would ask you, though, what importance do 
you place on this kind of historic preservation?
    Ms. Stevenson. I think it is clear by our assistance to the 
HBCUs that we consider them of great significance.
    Mr. Clyburn. Would you then say that the level of 
significance could very well be determined by the level of 
commitment on resources?
    Ms. Stevenson. This is a very complicated situation, and 
partially we are driven by the fact that there are literally 
thousands of historic resources nationwide that are in need of 
help. For us to single out a single class of resources and 
recommend that the Congress assist one and not be able to 
assist another makes us very uncomfortable. And that has been 
our position for years and years.
    We have recommended and have worked very closely with the 
States since 1966 to ask the States to work within their areas, 
or asked the tribes, when it is a tribal area, to identify the 
resources they consider to be not only the most significant but 
the most in need. That way the Federal Government doesn't have 
to come in and make a determination that overrules that of the 
States. That process has worked extremely well with the States 
and with the tribes, and we don't want to deviate from that 
process.
    Mr. Clyburn. Well, being from South Carolina, Ms. 
Stevenson, my roots in South Carolina go back a long, long way, 
and I know my State's history, and I think you are aware of my 
State's history. I don't believe that you would testify today 
that South Carolina State University, of which I am a product, 
founded in 1896, as a land grant college, has a history of 
being treated fairly by my State.
    Ms. Stevenson. Point well taken.
    Mr. Clyburn. So, then, before I next my question, I want to 
give you a little bit of background. I have worked very closely 
with this administration since January on various things. One 
of the things I have worked very closely, meeting with the 
President personally on this issue, has been the need for us to 
do remedial stuff because of our history.
    In fact, my January meeting with President Bush, I think, 
is partly responsible for the fact that Solicitor General Olsen 
on yesterday went before the Supreme Court in support of the 
program initiated by the Congressional Black Caucus on the 
highway program, and this administration supports that. And Mr. 
Olsen made it very clear as to why he was supporting that. And 
I would suggest that the same principles apply to this program 
here today.
    Now it is my understanding that when this original $29 
million was appropriated, a couple of things took place. One of 
them is that you wanted to divert this funding from this to 
other purposes, and I would like to know why. Was there some 
misunderstanding as to Congress' intent as to why you would 
make this suggestion?
    Ms. Stevenson. I am not at all familiar with that, sir.
    Mr. Clyburn. Well, let me ask you this. In reading your 
testimony that you have submitted for the record, you indicated 
in your testimony that only around $7 million of the authorized 
$29 million has been expended.
    Ms. Stevenson. Yes, sir.
    Mr. Clyburn. And you testify in there that this is some 
indication of the schools' inability to raise the money.
    Ms. Stevenson. Yes, sir.
    Mr. Clyburn. Yet you also testify in the very next 
paragraph that you would oppose lowering the match. That is one 
reason I am suggesting that we lower this match, because all of 
us know that these schools have tremendous difficulty. I have 
established at my alma mater, South Carolina State University, 
an endowed chair for me and my wife. The school was founded in 
1896. They have never, in the history of that school, had an 
endowed chair. Never.
    I would like for you to think about that, because that is 
what we are here today to try to preserve and protect the 
tremendous history of Arnett Hall, completed in 1891, built by 
the students themselves. Can you imagine what it was for black 
kids on that campus in 1891? And that building sat there since 
the 1950's, boarded up, until we came through with this 
program. Now that building stands there as a tremendous edifice 
and brought back that entire area of Columbia in a way which I 
cannot explain to you how emotionally that has captured the 
people of that area.
    I think that Congress would be doing a tremendous 
disservice if we did not take advantage of the fact that this 
long history, this great culture, is not preserved, and to 
allow these buildings to crumble simply because these schools 
have historically not been able to raise monies. And if we had 
this kind of authorization--nobody is asking for the funding 
here. We are asking for this authorization, so these schools 
can be armed with this authorization and go out here and go to 
the various foundations and go to the alumni who right now 
don't support a program where they don't think there is a 
commitment to do it. But if they knew that the Federal 
Government was committed to doing something, I believe it would 
be easier for these schools to raise the money and that 
objection that you have would go by the wayside with the 
signing of this legislation.
    Ms. Stevenson. Actually, sir, our point is that the 
Secretary already has the authority to change the level of 
match, and so that the authority rests in the Secretary at 
present, so we don't need new authority. And, in fact, she has 
already exercised that authority with Rust University. They 
requested a lower matching share and, in fact, that has been 
approved.
    Mr. Clyburn. That is true, and I have talked to Secretary 
Norton about this legislation, and I think she is tremendous. I 
appreciate that she has done that. But she will not always be 
Secretary, and I am not too sure what the next Secretary's 
attitude is going to be. And so I want this Congress to do it 
so that as Secretaries come and Secretaries go, so that this 
formula will be in law so that every Secretary will know what 
Congress' intent is, and was, at the time.
    So though I congratulate the Secretary and I thank her very 
much for Rust College, I also remind you that we lost the money 
for Selma University in Alabama because they were not able to 
do the match.
    Ms. Stevenson. That is correct, but it was also allocated 
to other HBCUs.
    Mr. Clyburn. Absolutely. But I do believe that Selma needed 
the money, because you all made them a priority. They were 
there in line because you put them in line. So when they were 
not able to raise the money, somebody else replaced them. But 
if we had a 70-30 match, they may have been able to keep their 
place in line.
    Thank you, Mr. Chairman.
    Mr. Radanovich. You are welcome, Mr. Clyburn. Anybody else 
wishing to question the witness?
    Mrs. Christensen. Thank you, Mr. Chairman.
    Ms. Stevenson, like all of my other colleagues who have 
priorities in our districts, we all have large backlogs in 
funding in these units, and so we can really appreciate that 
the Secretary sets as a priority eliminating some of those 
backlogs.
    However, I am sure you would agree that it is the 
prerogative of the Congress to set new priorities, if it is our 
wish to do so. And if this bill should become law, this would 
be a new priority. And I also wanted to underscore that this 
bill would authorize the funding would come later, but we hope 
that you would reconsider in light of the very poignant 
comments of Congressman Clyburn, the Secretary and the 
Department's objection to this legislation.
    You said that only $7 million had been expended, but yet 12 
projects that have been authorized have been completed within 
that $7 million?
    Ms. Stevenson. There are two different pots of money. One 
was authorized in 1995, and the other one later. And I have and 
can submit for the record a complete explanation of what money 
has been appropriated and expended by each of the universities 
covered, colleges and universities covered.
    Mrs. Christensen. Mr. Chairman, I would appreciate if we 
could get that information submitted for the record.
    Mr. Radanovich. If there is no objection, it is so ordered.
    Mrs. Christensen. You also said that--you indicated that 
the expending of the dollars was moving very slowly, and I 
agree with Congressman Clyburn that the match is a big 
obstacle. But in the interest of maybe looking at other ways 
that we can help to move that funding more swiftly, has the 
Park Service identified any other obstacles or barriers that we 
could look at addressing?
    Ms. Stevenson. Originally the United Negro College Fund 
assisted the universities and colleges in raising money, and 
they assisted not only universities and colleges that were 
within their purview, but they assisted others as well. They 
were very successful in assisting fund raising.
    With the new appropriation, they were really stretched 
beyond their ability to help. But many of these colleges and 
universities don't have the expertise for fund raising that the 
United Negro College Fund has, and maybe other fundraisers.
    Secondly, in the second lump of appropriations, although we 
have had a National Park Service employee visit each and every 
one of the universities and talk to both their university 
president as well as the staff on board, some of the schools 
have not yet developed their plans and specifications. And it 
takes a while to develop those.
    So some of the money that you see that has not been 
expended may be money that is in the pipeline ready to be 
expended. We just don't know that at this point, or at least I 
don't know this. Some of our staff may.
    Mrs. Christensen. So you don't know how much of it is 
obligated?
    Ms. Stevenson. Yes, I do know how much of it is obligated 
and I know how much has been expended. What I don't know is how 
far down the line some of the plans are at some of the specific 
schools.
    Mrs. Christensen. But I think again the first reason that 
you cited with regard to the fund raising also supports the 
request for the change in the match. You also said that the 
Secretary had granted a waiver. I, like my colleague, would 
want to establish the match and not leave it to a different 
Secretary that may not be so inclined to have to make a 
decision on that waiver. But you said that one waiver had been 
approved. How many had been requested? Were others requested?
    Ms. Stevenson. Several, and I don't have the exact number 
here in front of me, several requests, very general requests, 
came in just at the end of the last administration, and we 
wrote back to all of them and told them that we needed 
additional information. And Rust College has been the only one 
that I am aware of that submitted the additional information, 
and they were approved on October 4th.
    I am not aware of any others in the pipeline right now.
    Mrs. Christensen. Okay. But there have been others that 
have made the request, but none of them have really supplied 
you the information that you asked for?
    Ms. Stevenson. Correct.
    Mrs. Christensen. So that indicates that again the 
inability to meet the 50-50 match requiring a waiver, which 
makes that part of this legislation, you know, so much more 
important.
    I don't have any further questions, Mr. Chairman.
    Mr. Radanovich. Thank you, Mrs. Christensen. Anybody else 
have any questions? Mr. Udall?
    Mr. Udall. Thank you, Mr. Chairman. I did want to also add 
my voice to those we have heard with regard to this 
legislation. I think my colleague, Mr. Clyburn, makes a very 
compelling set of arguments that we should do all we can to 
support the historical black colleges and universities. I would 
note that there are 103 of these campuses that are rich in 
diversity, and we should do all we can to support them.
    I thought the most compelling argument that is made in the 
testimony was the strategic planning aspect of this for all 
these universities. I think we could play a very, very 
important role in helping these universities leverage dollars 
if we support Mr. Clyburn's proposal.
    I would also, if I could, since I have the floor, just 
thank you for holding a hearing in regards to my colleague Mr. 
Hefley's bill on the national heritage areas. He has offered an 
important piece of legislation. I would support him in moving 
that.
    I would also like to just mention that I have a piece of 
legislation on state heritage areas and for which I request a 
hearing and hope that at some point we could also do that. I 
think there is an opportunity for real synergy with the Federal 
Government and states. I thank you for the Chair's indulgence, 
and I look forward to working with you.
    Mr. Radanovich. I, too, look forward to working with you on 
those issues as well, Mr. Udall. Thank you for your comments on 
both bills. And if there are no further questions of Ms. 
Stevenson, thank you very much for your testimony.
    Ms. Stevenson. Thank you, Mr. Chairman.
    Mr. Radanovich. And then we will call our next panel.
    All right, thank you very much for coming to testify. We 
have on this next panel Mr. August Carlino, who is the 
president of the Rivers of Steel National Heritage Area and 
chairman of the Alliance of the National Heritage Areas in 
Homestead, Pennsylvania. Welcome for the third and lucky time, 
Mr. Carlino. Thanks for being here.
    Mr. Carlino. Thank you, Mr. Chairman.
    Mr. Radanovich. Also Dr. John Waddell, who is president of 
Saint Paul's College in Lawrenceville, Virginia. Doctor, 
welcome to the hearing.
    Mr. Waddell. Good morning, Mr. Chairman. Thank you.
    Mr. Radanovich. We look forward to your testimony. And also 
Dr. Wilma Roscoe, who is the interim president of the National 
Association for Equal Opportunity in Higher Education from 
Silver Spring, Maryland. Welcome, Dr. Roscoe.
    Ms. Roscoe. Good morning, Mr. Chairman.
    Mr. Radanovich. Thank you for being here. What we would 
like to do is just start off with your testimony. I am not 
going to do the clock. I am sick of it. But if you could kind 
of hang around 5 minutes on your testimony, that would be 
great, and then we will open it all up to questions after you 
are all done giving your testimony. Dr. Roscoe, if you would 
like to begin. Please use the microphone. And welcome to the 
hearing.

    STATEMENT OF WILMA ROSCOE, INTERIM PRESIDENT, NATIONAL 
 ASSOCIATION FOR EQUAL OPPORTUNITY IN HIGHER EDUCATION, SILVER 
                        SPRING, MARYLAND

    Ms. Roscoe. Thank you very much, Mr. Chairman, and to the 
distinguished lady from the Virgin Islands and other members of 
the Committee, I want to thank you for convening this important 
hearing. Not only is this historic, but it is very much 
necessary and needed.
    As a daughter, granddaughter, great-great-granddaughter of 
the great State of South Carolina, I want to also acknowledge 
Mr. Clyburn and to thank him for his effort in working to 
secure funding for the historically black colleges and 
universities, and to lead the way for the priorities for the 
future of our Nation's historically black colleges and 
universities, which are also referred to as HBCUs.
    The legislation that he introduced in partnership with 
Representative Clement from Tennessee, H.R. 1606, will 
authorize the expenditure of Federal funds that are needed to 
address the severe historic preservation needs of our Nation's 
HBCUs.
    Moreover, as a graduate of an HBCU and as interim president 
of the National Association for Equal Opportunity in Higher 
Education, known as NAFEO, I would like to say that it does my 
heart proud, as we say back home, to see and to witness the 
Congressional leadership that is being displayed today in 
bringing this issue to the forefront.
    The vast majority of the schools and structures that are 
the focus of this hearing were built in the 1800's. Today there 
are 103 Federally-recognized HBCUs that have served as centers 
of learning and can claim responsibility for educating between 
the 1800's and now over 70 percent of the Nation's African-
American professionals.
    Regrettably, the very mission and existence of these 
schools are in jeopardy of forever being lost because they are 
in critical need of repair. The severity of the situation has 
been well documented by public and private authorities since 
1988. In 1988, the Department of Interior, through the National 
Park Service, began to assess the historic preservation needs 
of HBCUs and eventually launched an initiative that listed 11 
HBCUs as endangered.
    Eventually Congress, the General Accounting Office, and the 
National Trust for Historic Preservation confirmed that many of 
the historic structures located on HBCU campuses were at risk 
of being lost and required significant funding to be saved.
    For example, in 1996, Congress, under the Parks and Public 
Lands Management Act, authorized $29 million for restoration of 
historical properties at selected HBCUs.
    Two years later, in 1998, the General Accounting Office 
conducted a survey and found that there were about 713 
properties on the 103 HBCU campuses that needed repairs or 
renovation. GAO estimated that $755 million would be needed to 
address these historic preservation needs.
    The Subcommittee should note that almost 15 percent of the 
historic preservation needs or structures identified by GAO, 
approximately $262 million, are located in States represented 
by almost half of the members on this Subcommittee, in fact, 
10.
    Also, in 1998, the National Trust for Historic Preservation 
took the unprecedented step of placing all of the nation's 103 
HBCUs on the list of America's 11 most endangered historic 
places, and concluded, and I quote, that ``immediate action 
must be taken to preserve not just the structures, but the 
important legacies of HBCUs.''
    The legislation you consider today, H.R. 1606, would go a 
long way toward finally addressing the needs that have been 
recognized for so long. Many of these historic buildings house 
classrooms, dormitories, administrative offices, laboratories, 
libraries, and provide other uses that are necessary components 
of providing a successful higher education experience. The 
current condition of many of these sites presents some serious 
health and safety concerns, and seriously impede the HBCU 
community's, and ultimately the Nation's, ability to catch up, 
keep up and step up to the challenges we have inherited over 
time, as well as the ones we face.
    Specifically, under H.R. 1606, $530 million is requested 
for the National Park Service HBCU historical preservation 
account. We recognize that the full amount would not be 
appropriated in 1 year. It would take some time to address all 
these needs. But working together, there is much that we can 
accomplish.
    I would just like to also add a personal note, that for the 
past 40 years I have worked at historically black colleges. I 
have worked with programs for historically black colleges, and 
the testimony that was just presented today is somewhat of a 
reversal of policy originally initiated during the Bush and 
Reagan administrations. The Department, independent of 
Congress, took the lead in establishing this initiative. I was 
a part of that initiative, at least the planning, and remember 
the history quite well.
    Secondly, let me say that Congress similarly has endorsed 
this type of effort through the 1996 Park bill as well as 
legislation that was passed to protect historic women's public 
colleges and universities.
    This will conclude my statement. I have submitted a more 
detailed statement for the record, and I thank you, and I will 
be happy to answer any questions that you may have.
    [The prepared statement of Ms. Roscoe follows:]

   Statement of Dr. Wilma Roscoe, Interim CEO & President, National 
         Association for Equal Opportunity in Higher Education

        Today, 103 Historically Black Colleges and Universities across 
        the nation continue to serve as centers of learning and 
        catalysts for social change. Sadly, they are also victims of a 
        lack of funding which has left many historically significant 
        buildings inadequately maintained and desperately in need of 
        repair . . . Immediate action must be taken to preserve not 
        just the structures themselves, but the important legacy of 
        HBCUs--the dreams they fulfill through the educations they 
        provide.

        National Trust for Historic Preservation
        June 15, 1998
Introductory Remarks
    Mr. Chairman and distinguished Members of the subcommittee, I am 
Dr. Wilma Roscoe, the Interim Chief Executive Officer and President of 
the National Association for Equal Opportunity in Higher Education 
(NAFEO). Even more notably, not only am I a proud native of South 
Carolina, the home state of Congressman James Clyburn, but I am also a 
graduate of an HBCU, Livingstone College, located in Salisbury, North 
Carolina. So, it truly is a cherished and esteemed honor to have an 
opportunity to testify before this particular congressional 
subcommittee, as you address the relevance and needs of the historic 
properties and facilities that are located on HBCU campuses. Your 
leadership in convening this hearing is unprecedented, and is a 
necessary step in preserving facilities that currently are classified 
as ``national treasures.'' Moreover, the consideration and ultimate 
passage of H.R. 1606, a bill which will amend section 507 of the 
Omnibus Parks and Public Lands Management Act of 1996 to authorize 
additional appropriations for HBCU historic preservation efforts, 
urgently is needed to protect the legacies and longevity of historical 
institutions that have been and will forever be necessary and indelible 
contributors to our success as a nation.
    In preparing for today's testimony, I asked my staff to summarize 
the number of HBCUs that are located in the states represented by 
members of this subcommittee. In reviewing the data, we found that 
about half of the members of this subcommittee (10) have HBCUs in their 
home states. Three have HBCUs located in their congressional districts. 
Even more surprising, the HBCUs located in the states represented by 
these Members have about $263 million in historic preservation needs, 
representing about 35 percent of the $755 million in needs reported by 
a General Accounting Office study that will be discussed later. A chart 
providing a summary of this information is attached to my testimony and 
I ask that it be included in the record.
Background
    With this in mind, if I may, I would like to begin by providing a 
brief background statement on the mission and work of the National 
Association for Equal Opportunity in Higher Education (NAFEO). NAFEO is 
the national umbrella and public policy advocacy organization 
representing the nation's 118 predominately and Historically Black 
Colleges and Universities (HBCUs). Our mission is to champion the 
interests of HBCUs through the executive, legislative and judicial 
branches of federal and state government and to articulate the need for 
a system of higher education where race, ethnicity, socio-economic 
status and previous educational attainment levels are not determinants 
of either the quantity or quality of higher education. The organization 
takes lead responsibility for the development and dissemination of 
public policy, programmatic efforts, and strategic and educational 
materials that: (1) enhance the role of HBCUs generally, and (2) 
promote minority student enrollment and attainment specifically. NAFEO 
is comprised of institutions of higher education that represent a broad 
spectrum of interests public and private, large and small, urban and 
rural, liberal arts, agricultural, research, scientific and technology 
development. Of all of the HBCUs that belong to NAFEO, approximately 
46% are public and 54% are private. The organization's membership is 
comprised of 2-year and 4-year institutions, as well as schools that 
offer advanced and professional degrees.
    NAFEO was founded in 1969, at a time when the nation had before it 
overwhelming evidence that educational inequality in higher education 
remained manifest. The 1954 Supreme Court decision, Brown vs. Topeka 
Board of Education, and its progeny, focused national attention on the 
dual and unequal primary and secondary education systems nationwide and 
spurred two decades of litigation and legislation designed to redress 
the inequalities. But the initial debate neither paid much attention to 
the inequalities in higher education nor focused on the nation's HBCUs 
as equal opportunity institutions; thus, a solution to some of the 
nation's higher education issues was eluded. NAFEO's establishment 
occurred in response to the need to have an organizational mechanism in 
place that would keep these issues at the forefront of national policy 
discussion and development.
    Since the organization's inception in 1969, NAFEO has played a key 
strategic role in expanding access to higher education for African 
Americans, and in more recent years students from other racial/ethnic 
groups. In fact, NAFEO institutions historically are responsible for 
educating the vast majority of African Americans. Today, while NAFEO 
institutions enroll approximately 18 percent of all African American 
college students, they confer about 30 percent of all bachelors degrees 
awarded to African Americans nationally. In some disciplines, such as 
engineering and teacher education, the number is significantly higher. 
Moreover, these schools produce the largest number of African American 
baccalaureate recipients who eventually go on to receive doctorate 
degrees, especially in the sciences.
    Consider, for example that eight of the top 10 producers of African 
American engineers are HBCUs. Additionally, 42 percent of all the Ph.Ds 
earned each year by African Americans are earned by graduates of HBCUs; 
18 of the top 23 producers of African Americans who go on to receive 
science-related Ph.Ds are HBCUs. NAFEO institutions are situated in 
every quarter of the country: in fourteen Southern states, six Northern 
states, three Midwestern states, one Western state, the District of 
Columbia and the Virgin Islands. They enroll approximately 500,000 
undergraduate students and 50,000 graduate, professional and doctoral 
students. Our alumni rosters include Mary McLeod Bethune, Booker T. 
Washington, Althea Gibson, Thurgood Marshall, Oprah Winfrey, Andrew 
Young, Jr., Ronald McNair, Martin Luther King, Jr., Vernon Jordan, 
Walter Payton, approximately half of the Members of the Congressional 
Black Caucus, and scores of other notable leaders.
Statement of Need
    Even with this notable history of accomplishments that have 
strengthened the economic, political, and cultural foundation upon 
which our nation has been built, many structures on HBCU campuses are 
in severe need of repair. The situation is so severe, that in 1998, the 
National Trust for Historic Preservation took an unprecedented step and 
included 103 HBCUs on its list of America's 11 Most Endangered Historic 
Places. In announcing this historic designation, the National Trust for 
Historic Preservation concluded the following:

        Of the 103 HBCUs in the United States, most are showing serious 
        signs of neglect. Campus landmarks are decaying and college 
        grounds are badly in need of attention. Most were constructed 
        during the second half of the 19th century using the finest 
        materials and craftsmanship available, and built, in many 
        instances, with the help of the students themselves. Their 
        architectural styles are as distinctive and varying as the 
        years in the timespan in which they were built. The excellent 
        education provided within these walls proved indispensable in 
        the 1950s and 1960s, when the HBCUs became the training ground 
        for the Civil Rights movement.

    The findings of the National Trust for Historic Preservation are 
consistent with findings that have been made by the Department of 
Interior, Congress, and the General Accounting Office.
    For instance, in 1988 the Department of Interior, National Park 
Service established the HBCU Historic Preservation Initiative. As a 
part of that program, 11 historically significant and critically 
threatened structures were identified. Federal and private resources 
were secured to fund these projects. The Department of Interior 
contributed $13 million to this initial effort. Consistent with the 
findings and efforts of the Department of Interior, under the Omnibus 
Parks and Public Lands Management (OPPLM) Act of 1996, Congress 
authorized and ultimately appropriated $29 million in funding for the 
restoration of historic properties at selected HBCUs. Only those 
historic properties on the National Register or which were determined 
eligible for listing on the National Register as a result of state 
historic preservation officer (SHPO) surveys were eligible for federal 
grant assistance under the National Historic Preservation Act or the 
OPPLM Act of 1996. The amounts authorized in the 1996 bill have been 
fully appropriated, and the authorization has expired.
    Two years after funding was authorized in the OPPLM Act, an 
pursuant to a congressional request submitted by Representative 
Clyburn, the General Accounting Office (GAO) conducted a study of 
historic preservation needs at HBCUs entitled Historic Preservation: 
Cost to Restore Historic Properties at Historically Black Colleges and 
Universities (GAO/RCED-98-51, February 1998). GAO concluded that 712 
properties on the 103 HBCU campuses surveyed were in need of repairs or 
structural renovations. Of these 712 properties, 672 (94.4%) are 
buildings, with the remainder being sites, structures or objects, such 
as smokestacks and courtyards. An estimated $755 million is needed to 
address these historic preservation needs. The report noted that 
approximately 8 percent of the total amount had already been set aside 
to pay the restoration costs for specific properties.
    The needs at many of the facilities consist of making the 
properties more accessible to people with disabilities, replacing leaky 
roofs, removing health threats such as asbestos and lead-based paint, 
or wiring for new technologies. It should be noted that in recognition 
of their historic and present importance, the Park Service in June of 
1998 listed all 103 HBCUs on the National Register of Historic Places. 
This action makes each of the properties identified by GAO eligible for 
historic preservation funding.
    The Department of Interior did note that the magnitude of the 
repair cost estimates reported by the schools is substantial in terms 
of the limited level of appropriations available from the Historic 
Preservation Fund for matching grants available to HBCUs pursuant to 
the OPPLM Act of 1996. Additionally, any funding for increased 
appropriations for grants to HBCUs in furtherance of this effort would 
be subject to authorization. As a result, there are legislative 
challenges that must be addressed when considering the restoration of 
historic properties at these schools.
Recommendations
    In order to effectively address the legislative hurdles that must 
be cleared before we can move forward in rectifying the HBCU historic 
preservation needs that have been documented by authorities at every 
level, we respectfully request the expeditious consideration and 
passage of H.R. 1606. Any further delay promises to jeopardize the 
legacy and future, the very existence, of national treasures that have 
been classified as endangered by experts on the subject for more than a 
decade. Moreover, if HBCUs are to survive and successfully compete with 
larger, more heavily endowed schools, congressional action is needed 
now. Our institutions need to preserve and renovate their historic 
facilities, not only because they are a part of American history, but 
also because they also need to update and upgrade a deteriorating 
infrastructure needed to educate students and attract quality faculty 
who must have the tools to meet the complex challenges presented by the 
new century, many of which are technology-based. Many of these historic 
buildings house classrooms, administrative offices, dormitories, 
laboratories, libraries and provide other usages that are necessary 
components of having a successful higher education experience. The 
current condition of many of these sites present serious health and 
safety concerns, and seriously impede the HBCU community's ability to 
catch-up, keep up and step up to the challenges we have inherited over 
time, as well as the ones presented by a new and highly technological 
millennium.
    Passage of H.R. 1606 and the ultimate provision of sufficient, 
long-term funding for the National Park Service's Historic Preservation 
account would enable a significant number of HBCUs to begin 
preservation activities on the most dilapidated campus facilities. 
Specifically, under H.R. 1606, $530 million is requested. This is 
significantly less than the cost estimates included in the GAO report, 
mainly because the legislation would require HBCUs to provide 30 
percent of the project costs in matching funds. Additionally, while we 
seek and support a multi-year authorization, we recognize that the full 
amount would not be appropriated in one year. Surely, it will take some 
time to address these needs. However, with your help and support, there 
is much we can accomplish.
    This concludes my statement for the record. Again, on behalf of the 
National Association for Equal Opportunity in Higher Education, I want 
to thank you for the opportunity to testify before this subcommittee.
                                 ______
                                 
    [An attachment to Dr. Roscoe's statement follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. Radanovich. Thank you, Dr. Roscoe. Dr. Waddell, thank 
you very much. You may begin your testimony, too. If you could 
please keep it to 5 minutes, that would be great. I will set 
the clock.

  STATEMENT OF JOHN KENNETH WADDELL, PRESIDENT, SAINT PAUL'S 
                COLLEGE, LAWRENCEVILLE, VIRGINIA

    Mr. Waddell. Good morning, Mr. Chairman and Committee 
members. Thank you for allowing me to be here today. It is with 
great pleasure that I testify as a part of H.R. 1606, 
Congressman Clyburn's bill to expand authorization of the HBCU 
historic preservation program.
    As the former president of Allen University in Columbia, 
South Carolina, I have seen first-hand the tremendous national, 
State and local impact this appropriation has facilitated with 
the restoration of Arnett Hall, a 113-year-old treasure which 
sat empty for approximately 35 years.
    The building, the first on campus, was the pride and 
cultural centerpiece for the campus and the intellectually 
acclaimed Old Waverly African-American community. From 
inception, it was utilized as a kindergarten, elementary 
school, high school, law school, dormitory, and meeting place 
for many alumni, neighbors and friends of the college.
    In addition, like many historically black institutions, the 
campus sits in one of the prime commercial corridors in 
Columbia, South Carolina, the State capitol. It is located less 
than one mile from Main Street, the major business and banking 
centers, and the state legislature. Arnett Hall, its federally 
restored jewel, is situated in a pivotal location with an 
excellent view of the entire area.
    The scope and impact of Federal funding for this initiative 
cannot be measured in purely dollars and cents. Prior to this 
appropriation, the death knell for Allen University had been 
sounded. The student population had dropped from a high of 1000 
in the early 1960's to 237 in 1997.
    The institution also faced 78 recommendations and 
suggestions from the Southern Association of Colleges and 
Schools. Low morale, dilapidated buildings, deferred 
maintenance and run-down streets surrounding the campus were 
unfortunately the norm, rather than the exception.
    Concurrently, public appreciation for past tradition had 
quickly eroded, and ugly rumors of its demise were prevalent. 
There were fears that the college, with its cultural 
significance, community relationships, and a long-term record 
of having more graduates in the South Carolina state 
legislature than any private college in South Carolina, would 
be lost forever.
    However, immediately upon receipt of the appropriation, the 
direction changed. The institution moved from a posture of 
lifelessness to the perception of a college with hope and a 
compelling future. The board of trustees, led by Congressman 
James Clyburn and Bishop John Hurst Adams, articulated the 
funding as a foundation for a larger vision and an outline for 
a New Allen of which the entire South Carolina community would 
be proud.
    And that is exactly what happened. A phoenix arose from the 
ashes and the community, state and National pride in the 
college was reborn.
    The new strategic plan was implemented, and alumni giving, 
teacher education accreditation, a $1.1 million gift from the 
Lilly Foundation for programmatic activities within the 
building followed.
    The board of trustees, through strategic planning, also 
leveraged and complemented the gift with the restoration of a 
$7.5 million bond issue with Bank of America, the substance of 
which allowed the institution to build a new multi-purpose $4 
million gymnatorium and the remainder was used for deferred 
maintenance and to help get the reaffirmation of the college.
    Moreover, the beauty of Arnett Hall stimulated a spark 
among local neighbors to upgrade their homes and grounds. City 
roads were suddenly repaved, and community groups leased campus 
facilities at an all-time rate. As the media attention 
continued, Chamber of Commerce groups and other economic 
development entities began including the institution in its 
plans.
    In closing, the scope and impact of this program is truly 
magnificent. The appropriation made a significant difference. 
It not only spurred institutional progress and saved a 130-
year-old institution, but also renewed community pride and 
state interest in historic preservation and economic 
development. It continues today. This is a prime example of 
Federal dollars making a difference for the public good.
    Please, please, please support Congressman Clyburn's bill 
and lower the match. These treasures are critical for the 
communities served, the States and the Nation. Thank you very 
much.
    [The prepared statement of Mr. Waddell follows:]

  Statement of Dr. John Kenneth Waddell, President, St. Paul's College

    It is with great pleasure that I testify in support of HR 1606, 
Congressman Clyburn's bill to expand authorization of the HBCU Historic 
Preservation Program.
    As the former President of Allen University in Columbia, SC, I have 
seen first hand the tremendous national, state, and local impact this 
appropriation has facilitated with the restoration of Arnett Hall, a 
113-year-old treasure, which sat empty for approximately 35 years.
    This building, the first on campus, was the pride and cultural 
centerpiece for the campus and the intellectually acclaimed ``Old 
Waverly'' African-American Community. From inception, it was utilized 
as a Kindergarten, Elementary school, High school, Law school, 
dormitory and meeting place for many alumni, neighbors, and friends of 
the college.
    In addition, like many historically black institutions, the campus 
sits in one of the prime commercial corridors in Columbia, South 
Carolina, the state capitol. It is located less than one (1) mile from 
main street, the major business and banking centers and the state 
legislature. Arnett Hall, its federally restored jewel, is similarly 
situated in pivotal location with an excellent view of the entire area.
    Thousands of tax-paying citizens pass each day exclaiming the 
beauty of the restored structure. This has been documented by numerous 
media sources and an award from the South Carolina Historic 
Preservation Society.
    The scope and impact of federal funding for this initiative cannot 
be measured in pure dollars and cents. Prior to this appropriation, the 
deathknell for Allen University had been sounded!
    This institution, a state icon and cultural treasure, had drifted 
passively for approximately four decades and faced a multiplicity of 
challenges ranging from enrollment and accreditation and credibility 
issues.
    The student population had dropped from a high of 1,000 in the 
early 1960's to 237 (FTE) in 1997. The institution also faced seventy-
eight (78) Recommendations and Suggestions from the Southern 
Association of Colleges and Schools (SACS). Low morale, dilapidated 
buildings, deferred maintenance and rundown streets surrounding the 
campus were unfortunately the ``norm rather than the exception''.
    Concurrently, public appreciation for past tradition was quickly 
eroding and ugly rumors of its demise were prevalent. There were fears 
that the college, with its cultural significance, storied history, 
community relationships and a long-term record of having more graduates 
in the state legislature than any private college in South Carolina, 
would be lost forever.
    Immediately upon receipt of the appropriation, the direction 
changed. The institution moved from a posture of lifelessness and 
dormancy to the perception of a college with hope and a compelling 
future.
    Campus constituencies, the media, community leaders, elected 
officials, corporate entities and accreditation officials immediately 
took notice. The Board of Trustees led by congressman James Clyburn and 
Bishop John H. Adams, articulated the funding as a foundation for a 
larger vision and an outline for a ``New Allen'' of which the entire 
statewide community could be proud.
    This is exactly what happened. A phoenix arose from the ashes and 
community, sate and national pride was reborn.
    Other unexpected but possible but positive changes occurred. A new 
confidence and collaborative efforts were inspired between federal, 
state and campus officials. Led by Mr. Cecil McKithian in Atlanta, 
officials from the National Park Service conferred with state historic 
preservation on a consistent basis.
    State officials were also highly impressed with the thorough survey 
and study conducted by the General Accounting Office (GAO) and the 
college's detailed architectural/ Master Plan and cost study required 
by Congressman Clyburn to move forward. This effort also brought 
persons to campus that did not previously have interest or stake in its 
future but quickly became new fans and supporters.
    Also internally, changes occurred quickly. As construction 
progressed, student, faculty and alumni pride grew. Alumni purchased 
bricks and contributions increased to the Alumni and Annual Funds by 
25%. Enrollment soared from 237 to 550 and the colleges went from empty 
classrooms to being forced to place a hold on new admissions until 
further housing space could be located. Traffic on campus increased 
threefold and where once, parking spaces were abundant, a new campus 
Parking and Ticketing system had to be established.
    The appropriation also spurred new sources of revenue and academic 
enhancements. The Lilly Foundation gave a gift of $1.1 million dollars 
to the college for new technological upgrades and programmatic 
activities in Arnett Hall. The State Department of Education moved 
forward with its hold on accreditation of the Teacher Education program 
primarily due to the lack of an appropriate facility to house the 
program. After a tour by state officials, an agreement was struck to 
house the program in the restored building and the program was 
accredited.
    The Board of Trustees also complemented the restoration with the 
completion of a $7.5 million dollar Bond issue with Bank of America. 
The substance of which allowed the institution to build a new, 
multipurpose $4 million dollar Gymnatorium with an Olympic-sized 
swimming pool adjacent to the restored facility. The remainder was used 
for deferred maintenance and to pay off old debts, which increased 
public confidence in the college's financial condition. The 
accreditation agency (SACS) also removed the institution from negative 
(Warning) status and reaffirmed the institution's ten (10) year 
accreditation.
    Moreover, the beauty of Arnett Hall stimulated a spark among local 
neighbors to upgrade their homes and grounds. City roads were suddenly 
repaved in the area and in the community groups leased campus 
facilities at an all-time rate. As media attention continued, local 
Chamber of Commerce groups and other economic development entities 
began including the institution in its discussions for the area and 
highlighted th4e building on its placards.
    Also, longtime low-income residence of the community would simply 
stand at the perimeter of the beautiful courtyard and gaze. 
Subsequently, in tears, stating, ``that they or their parents had great 
memories of attending school or some activity in the building but had 
given up on it's restoration, the college and the community''. It was 
also common for persons from all persuasions to walk in without notice 
and write a check, acknowledging its beauty, transformation and revival 
of the downtown community. Their gift, symbolic of their desire to be 
an active supporter of this initiative.
    In closing, the scope and impact of this program is truly 
magnificent! The appropriation made a significant difference! It not 
only spurred institutional progress and saved a 130-year-old 
institution but also renewed community pride and state interest in 
historic preservation and economic development. It continues today. 
This is a prime case of federal dollars making a difference for public 
good.
    Thank you very much.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Waddell. Before we go to our 
next witness, I want to welcome Eddie Bernice Johnson of Texas 
to the panel, and ask unanimous consent that she be allowed to 
join us on the dais. There certainly being no objection, so 
ordered.
    Now here to speak on our second bill, which is 2388, is Mr. 
Carlino, who is again president of the Rivers of Steel National 
Heritage Area. Welcome, Mr. Carlino.
    Mr. Carlino. Thank you, Mr. Chairman.
    Mr. Radanovich. And if you could kind of keep your 
testimony to 5 minutes.

 STATEMENT OF AUGUST R. CARLINO, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, RIVERS OF STEEL NATIONAL HERITAGE AREA, AND CHAIRMAN, 
  ALLIANCE OF NATIONAL HERITAGE AREAS, HOMESTEAD, PENNSYLVANIA

    Mr. Carlino. And thank you for extending the invitation for 
me to appear here today again. I appreciate it, and I know my 
colleague, Ms. Harris, sends her regrets that she was unable to 
appear, but I know you have her testimony that is going to be 
submitted for the record.
    As you know, I am president of Rivers of Steel National 
Heritage Area, located in Homestead, Pennsylvania, just outside 
of Pittsburgh. I am also chairman of the Alliance of National 
Heritage Area, a coalition of the 23 congressionally designated 
national heritage areas and their partners working in heritage 
development across the country.
    And as Mr. Hefley has pointed out, indeed, heritage areas 
have grown over the past two decades, from a fairly nebulous 
concept when it was first proposed back in the 1980's to one 
now that has more than 150 heritage programs or projects across 
the country. But I think that is being done because heritage 
areas come up with a number of development strategies that work 
in partnership to preserve the Nation and the States and local 
communities' history in unique ways that doesn't rely on a 
single source of funding from one unit of local government or 
even from a private partner.
    Heritage areas, and national heritage areas, are special 
places in America. They merge community resources to promote 
conservation and community and economic development, or what we 
call heritage development.
    Heritage areas harness a wide range of community assets and 
interests, from historic preservation to outdoor recreation, 
museums and performing arts, folk life and crafts, scenic and 
working landscapes, and grass-roots community-building 
activities that, when they are all combined, create a sum that 
is greater than their parts.
    All heritage areas have some basis and root in community 
activity. Mine in Pittsburgh, in southwestern Pennsylvania, is 
not unique. In fact, we were created because there was a 
coalition of community groups and local governments and 
foundations concerned about the demise and loss of the steel 
industry in Pittsburgh and southwestern Pennsylvania in 1988, 
and that effort grew out of an opportunity to save a part of a 
closing mill. That is still a very important program that we 
are working toward in our organization, one that Congressman 
Doyle has introduced legislation on to designate as a new 
national park. But out of that grew the effort to create a 
national heritage area that celebrates and commemorates the 
complexity of the industry for steel-making in southwestern 
Pennsylvania, and that is one that has worked remarkably well 
over the past 12 years.
    But since we have been designated as part of the Omnibus 
Parks bill in 1996, I just wanted to point out to you some 
statistics on our organization.
    Not counting this year's appropriation that just passed in 
the conference Committee, the Steel Industry Heritage 
Corporation, the parent organization of the Rivers of Steel 
National Heritage Area, has received a little under $4 million 
in appropriated funds through NPS, Department of Interior 
monies.
    We have been able to leverage directly almost $23 million, 
a little over $23 million, in other public or private funding 
for projects.
    We also work with partners in the communities in the 
heritage area, and they, because of that money that we regrant 
and work to put into programs, they have been able to raise 
approximately $25 million more toward projects.
    This success exists because the money that we get through 
the heritage area program that the Congress gives us is money 
that we are able to use as seed financing and work toward that.
    Boy, 5 minutes goes quickly, doesn't it?
    [Laughter.]
    Mr. Carlino. If I can jump to the points of the bill, if I 
may, I think you see a lot of the things of heritage areas, as 
it says in my statement, are, as Mr. Hefley's bill indicates, 
are things that we think are important to have. There needs to 
be a consistent policy and program, and Mr. Hefley's staff, 
particularly Larry Hojo, has been extremely open in working 
with us, and we appreciate that, and thank the Congressman and 
Larry for his work.
    Some points I would like to make. At least in my 
experience, I think the heritage area should not be designated 
as national heritage area until all planning is completed. That 
includes both the feasibility and the management plan.
    I think that the limitations that the bill suggests, as Ms. 
Stevenson pointed out, to have the consent of all units of 
local government could be cumbersome to the point of not being 
able to be achieved. Like Hudson River, our region in 
southwestern Pennsylvania has a number of local government 
units. In Allegheny County, there are 137 units of local 
government, of which the city of Pittsburgh is one. We cover 
seven counties. We would spend all of our time trying to get 
every single unit of local government to support it. I think 
there are other things that we can do that show through our 
experience that units of local governments can be added into 
the process.
    I think the grant program creates a hierarchical approach 
that would become bureaucratic and too burdensome to the 
heritage areas to function. The way the program works right now 
through direct appropriations to the heritage areas allows not 
only the heritage areas to work with the communities and 
develop the projects that need funding each year, but also 
allows the communities to remain in contact directly with their 
government in expressing the needs and priorities of their 
local communities.
    I think that the program also, in limiting the funding to 
the heritage areas each year to 3 years of administration, is a 
little bit too short. With a good management plan, those 
heritage areas will be able to succeed.
    I also would point out to you that I believe strongly that 
the National Park Service should be allowed to use and gain 
appropriations from this for using its staff to provide 
continued technical assistance to the heritage areas, although 
the amount of funding we think is a little bit--or is 
arbitrarily capped at $10 million.
    And finally we are concerned that the bill has some 
retroactive language in it that affects the 23 heritage areas 
as they exist. Some of that has been cleaned up in previous 
drafts. We just hope that there could be some cleaning up of 
the remaining issues and allow those heritage areas to work 
under their organic acts.
    Thank you. And I apologize for extending beyond my limit.
    [The prepared statement of Mr. Carlino follows:]

 Statement of August R. Carlino, President & Chief Executive Officer, 
 Steel Industry Heritage Corporation and the Rivers of Steel National 
    Heritage Area, and Chairman, Alliance of National Heritage Areas

    Mr. Chairman, distinguished members of the Subcommittee, my name is 
August R. Carlino, and I am the President and Chief Executive Officer 
of the Steel Industry Heritage Corporation, developers of the Rivers of 
Steel National Heritage Area located in and around Pittsburgh and parts 
of southwestern Pennsylvania. I am also here today testifying in my 
capacity as Chairman of the Alliance of National Heritage Areas, an 
organization whose membership includes 22 of the 23 congressionally-
designated NHAs, along with other organizations and partners. I 
appreciate the opportunity to appear before the Subcommittee today to 
discuss H.R. 2388, the National Heritage Areas Policy Act of 2001.
    In the last two decades, heritage areas have grown from a nebulous 
concept to a powerful national movement. Heritage areas span a wide 
spectrum of activities. They can range from a single effort to save a 
group of historic buildings to a multifaceted approach to community 
conservation, preservation, tourism and economic revitalization. 
Heritage areas can be located in one neighborhood, or they can be 
multi-jurisdictional, crossing the boundaries of counties and even 
states. Heritage areas can be fostered by the philanthropy of an 
individual, or by the collective participation of foundations, 
businesses and governments in a regional project. Our latest estimate 
indicates that heritage areas have sprouted in more than 150 places 
throughout the U.S. This ``niche'' in the preservation industry has 
become the catalyst for the creation of investment and economic 
development strategies in a number of states and through the federally-
sponsored initiatives with our partner, the National Park Service, in 
the National Heritage Areas.
    These National Heritage Areas are special places in America. NHAs 
merge community resources to promote conservation and community and 
economic development or heritage development. They harness a wide range 
of community assets and interests - from historic preservation, outdoor 
recreation, museums, performing arts, folk life and crafts, and scenic 
and working landscapes, to grassroots community-building activities, 
that when combined create a sum greater than its parts.
    NHAs celebrate the special character and culture of places, and 
have a strong sense of place and identity. They are neither urban nor 
rural and often include communities and sites throughout a region. 
Typically, NHAs work to protect historic and cultural resources while 
encouraging development for tourism and other economic opportunities. 
NHAs illuminate the history and culture of a region so those people 
within the region feel proud of their heritage and those who visit come 
away with an appreciation of the cultures of the region.
    Pittsburgh and southwestern Pennsylvania maintain an important role 
in the story of America, with a history of extraordinary 
industrialization, forged by steel and related industries. Steel 
production spawned a spectacular wealth of physical, social and 
cultural legacies that distinguish the region on a state, national and 
international level. Pittsburgh and southwestern Pennsylvania wear this 
heritage proudly, with life in the region still dominated by industry, 
ethnic tradition, and communities. A strong central framework for 
linking these resources exists in the rivers and river valleys. This 
background, supported by all of the region's existing resources, served 
as the basis for the establishment of the Rivers of Steel National 
Heritage Area in 1996 (P. Law 104-333).
    In 1988, a coalition of community groups, businesses, labor 
organizations and local foundations came together to save a part of 
Pittsburgh's rapidly disappearing steel heritage. That effort grew into 
a regional community-based task force that, in working in partnership 
with the National Park Service and the Commonwealth of Pennsylvania, 
developed the necessary feasibility studies and management plans to 
create both the Steel Industry Heritage Corporation and the Rivers of 
Steel National Heritage Area. Rivers of Steel covers seven counties in 
southwestern Pennsylvania and works to conserve, interpret, promote and 
develop the industrial, cultural, natural and recreational resources of 
the region, making them critical elements of community revitalization 
and heritage tourism.
    Rivers of Steel has succeeded because of its true partnership 
structure, and grassroots organizational and management objectives. 
Communities in southwestern Pennsylvania have formed a regional 
coalition unlike any before; one in which local constituencies, with 
the technical assistance the of professional staff of SIHC, partner 
with local, state and the federal governments to commemorate their 
heritage while working to make their communities better places to live, 
work and play. These communities are in charge of the projects and 
programs in the heritage area, and each community knows it must work to 
support and strengthen its neighboring communities' projects to be 
successful. This success has translated into more than $43.4 million 
SIHC has risen in the past nine years for projects in the Rivers of 
Steel region. As significant as this number is, it becomes more 
significant when I illustrate what designation as a NHA has meant. 
Since our authorization in 1996, SIHC has received $3.988 million in 
National Heritage Area funds. This has leveraged more than $23.5 
million in other public or private funding (590 percent). This exists 
only because the heritage management entity, SIHC, and its partnering 
communities have the responsibility as granted by the Congress in P. 
Law 104-333 to develop the Rivers of Steel National Heritage Area. In 
addition, Rivers of Steel has a true partner in the current 
relationship with the National Park Service, providing guidance and 
expertise in projects and programs. If the NHA designation would cease 
without any ability for reauthorization and additional funding, this 
leveraged funding would cease to exist. I believe you will find this to 
be true for most NHAs as well.
    To be successful, NHAs not only have to work with communities to 
develop projects and to raise funds, they also have to develop 
partnerships to carry out work. In all that we do, our most 
significant, and most important partner to our efforts is the National 
Park Service. After all, NHAs exists because their historical, 
cultural, recreational and natural resources have been determined to be 
nationally significant. NHAs extend the breadth of the National Park 
Service's mission, and broaden the public's awareness of the Service's 
responsibility and commitment to the nation's heritage. As one of my 
colleagues, an NPS Superintendent, stated, National Heritage Areas are 
successful, too, `` because they are where people and the government 
can come together to preserve a piece of America's heritage and do it 
in a way that unites a region.'' National Heritage Areas are fully 
consistent with the National Park Service's mission to protect the 
nation's natural, cultural and historic resources. NHAs have been 
successful in developing and implementing preservation strategies and 
in bringing communities together to protect resources, and I believe, 
from my work with the Northeast Region, in particular, that National 
Park Service believes in and desires to enhance and encourage such 
local endeavors.
    To that end, the National Park Service and the National Heritage 
Areas should have a continuing relationship in their larger partnership 
to protect the resources of America. NHAs are not just important to the 
public, they are important to the NPS in meeting its conservation and 
education goals. NHAs enable the NPS to involve communities first-hand 
in protecting resources and understanding and promoting the nation's 
heritage. Working together, NHAs and the NPS tell the stories and 
protect the resources that are the backdrops of many of the nation's 
national parks, national historic sites, national monuments and 
national battlefields. Together, they build constituencies that support 
each other's work, and support the national parks. But this is a 
reciprocal relationship as NPS provides local groups with the needed 
resources, experiences and expertise that help NHAs succeed in ways 
beyond most peoples' expectations and imaginations.
    Before I discuss the specifics of H.R. 2388, I wish to make some 
general statements regarding NHAs. First, much to the contrary of some 
people's belief, NHAs are not a drain on the budget of the National 
Park Service. The investment that that Congress provides each year to 
the designated NHAs actually helps extend the reach of the NPS and 
furthers its mission in places where it might not be financially 
feasible if a project were to be otherwise solely funded by NPS 
dollars. The record shows that NHAs are greatly successful in brokering 
the Interior Appropriations funds each year by using that money as seed 
investment to attract money to projects from other federal, state, 
local and private sources. NPS funds are, therefore enhanced. The 
additional money leveraged from other sources is that much more that 
remains available in Interior funds for projects within the national 
parks.
    Second, NHAs continue to be proposed and created because they are 
successful conservation strategies. They draw national and 
international attention to the benefits of locally driven initiatives, 
committed communities, and NPS partnership and funding as new, 
innovative ways provide for the interpretation and protection of our 
nationally significant resources. NHAs should be looked at as ways to 
extend the National Park Service's mission and meet its obligations in 
the nation.
    Lastly, just as NHAs can enhance NPS's role and the national park 
that they are near, the establishment of national park units within 
NHAs can further enhance the heritage area. It concerns me greatly, and 
I believe we must avoid at all cost, the belief that just because a NHA 
has been established means that no historic resource within the 
boundary of the NHA is eligible for designation as a unit of the 
National Park Service system. NHAs offer new approaches to conservation 
and protection of the nation's history but the fundamental roles and 
responsibilities of the National Park Service still exist, and it must 
continue to act as the ultimate protector of our nation's most valued 
historic and cultural resources.
    In 1999, this Subcommittee convened a hearing on this same subject 
and many of our partners, including the National Park Service, 
presented testimony an earlier version of this legislation. Let me 
start by saying the Alliance of National Heritage Areas, and my 
organization Rivers of Steel National Heritage Area is grateful for the 
support we have received from members and the staff of this 
Subcommittee. I am particularly grateful to the openness you and your 
staff have demonstrated in the drafting the National Heritage Areas 
Policy Act.
    At that hearing Denis Galvin, Deputy Director of the National Park 
Service, indicated in his testimony the critical steps necessary to 
designate a National Heritage Area. They are:
    1. Lcompletion of a feasibility/suitability study;
    2. Lpublic involvement in the study process;
    3. Ldemonstration of widespread public support among heritage area 
residents for the proposed designation; and,
    4. Lcommitment to the proposal from the appropriate players, 
including governments, business, private and non-profit organizations, 
and the local citizenry.
    At that same hearing, the Alliance of National Heritage Areas 
founding Chairman, Dan Rice of the Ohio and Erie Canal National 
Corridor, reiterated the need for strong public participation, not only 
in the study process, but also throughout the implementation of the 
goals and objectives of the NHA. I would add one other critical element 
that needs to be completed before Congress considers an area for 
designation. All prospective NHAs should be required to complete a 
detailed management plan. I am very pleased to see the addition to H.R. 
2388 that specifies the management plan as part of the planning 
process. Designation by Congress of a NHA should come only after the 
management plan is completed.
    Overall, the Alliance believes there needs to be policy in place 
that governs the steps required before a region can be designated as a 
National Heritage Area. The difficulty is often getting all parties to 
agree on the specifics. The language of H.R. 2388 has changed in many 
ways since it was first drafted to include the comments and suggestions 
many people have provided. I believe that with a few more adjustments, 
this bill could gain the support of the Alliance and the other partners 
in the heritage area industry.
    Specifically, the follow issues within H.R. 2388 are still of 
concern to the Alliance of National Heritage Areas:
    <bullet> The bill requires congressional designation at both the 
feasibility study phase and after the completion of a management action 
plan. We believe congressional designation should come upon completion 
of the management plan, and no area should be designated a National 
Heritage Area before all of the plans are completed.
    <bullet> The bill requires a ``preponderance of units of local 
government'' to approve the local coordinating entity and the proposed 
heritage area before designation. The term ``preponderance'' we believe 
is unnecessary and unclear. If the planning process is carried out 
properly, local community and government support should build for the 
heritage area. In the planning process, a coordinating entity will 
emerge that has the support of all of the partners involved in the 
process. If not, the weakness of the plan and the coalition of partners 
if they exist at all will be evident to the Secretary and to the 
Congress when they review the plan and its recommendations.
    <bullet> If designation of NHAs, and subsequent funds, are not 
made until all planning, including the management plan, is completed, 
then the language providing a three-year eligibility for new area for 
funding is unnecessary (Section 6.G.2).
    <bullet> We believe the grant process as delineated in Section 6 
to be damaging to the whole process of National Heritage Area 
programming. The process of a prioritized list of grants submitted to 
the Congress by the Secretary removes from the process one of the 
fundamental elements that NHAs create the direct link to establishing 
funding priorities in the NHA by the public/private partnership and 
that partnership's ability, as it exists now, to communicate those 
needs directly to their members of Congress. NHAs are successful 
because they connect people to their government and the to the process 
of obtaining government funding for projects they feel are important to 
their communities. To sever this tie now, and make funding for NHAs 
available only on a grant process as determined by the Secretary 
undercuts the spirit of involving the citizenry in, and instilling in 
them the responsibility for, the development of their NHA.
    <bullet> Furthermore, Section 6 requires a pre-prioritization from 
the Governor of each state where a NHA is located, increasing the 
complexity of the funding process and further limiting the citizens 
ability to determine and make known the importance of funding for 
specific projects in their heritage area. If this procedure were to be 
enacted, we fear the process would become long, drawn out, cumbersome 
and intensely bureaucratic, and cripple the ability of NHAs to 
effectively undertake projects.
    <bullet> The Alliance and its members have strong concern for the 
limitation to the first three fiscal years of the use of NHA funds for 
operational expenses. The basic realities are that all granting 
entities, whether government or from private, must permit a necessary 
percentage of funds to be used for operations and administration, 
otherwise no one could be employed to oversee the project for which 
funding was received. NHAs, if properly managed and with strong 
management plan will, over time, become more self-sustaining; however, 
withdrawing necessary financial support too early would be more 
damaging than beneficial.
    <bullet> We believe the funding cap of $10 million per year to the 
National Heritage Area program to be inadequate considering that there 
are 23 NHAs, all of which conceivably could receive $1 million each 
fiscal year. The proposed funding cap is even less than the proposed 
funding amount in Interior Appropriations Bill for Fiscal Year 2002. 
Under the proposed scenario, the average amount per area would be 
considerably less than the current appropriation for almost all of the 
existing NHAs. This funding cap would irreparably harm the NHAs and 
their programs.
    <bullet> The Alliance is concerned that the bill as currently 
written, still contains a number of elements that would be retroactive 
to the 23 NHAs and their organic acts, or re-authorizations. We hope 
that this language can be clarified, so that our organization and its 
members will support this legislation.
    Finally, I believe that no program within the government can 
properly function without adequate support from the professional staff 
of the agency that oversees the program. NHAs have been incredibly 
successful, in part due to the determination and cooperation of the 
partners within each area. The NHAs have succeeded, too, because of the 
strong support they receive from the National Park Service, both in 
Washington and in the regional offices. For the National Heritage Area 
program to continue, funding must be provided on an annual basis to the 
NPS for staffing and technical support to both the existing NHAs and 
those that will continue to be created. Thus I would suggest language 
in the bill that authorizes an amount necessary each year to carry out 
the work of NPS within the NHAs.
    In closing, Mr. Chairman, I believe that the National Heritage 
Areas represent a successful, new approach to governing that defines 
the role of all the partners. The nation's historic and cultural 
resources are further protected when an involved and educated 
citizenry, working with the National Park Service, become stewards of 
these resources, and champions for their continued conservation and 
interpretation. There is tremendous enthusiasm in the public for the 
National Heritage Area program, and for the continued role of the 
National Park Service as a strong, effective partner in this process. 
While I understand that achieving consensus on general policy and 
legislation might be a difficult undertaking, we stand prepared to work 
with you to continue making the National Heritage Area program 
successful. We may find that some of these principles may not need to 
be instituted through legislation. Nonetheless, I know that you agree 
with me that any new legislation should look to what is successful 
today, and set into policy those elements that will permit this program 
to flourish.
    Again, thank you for your invitation to appear before the 
Subcommittee. I appreciate your interest in our work, and I am 
available to answer any questions you have.
                                 ______
                                 
    Mr. Radanovich. That is okay. It is just all the bells and 
whistles mean we have a vote in about--we have 15 minutes to 
get to the Floor, so what I am going to try to do is wrap it 
up, if we can, and so for that reason, if there is no 
objection, I want to put the emphasis on the sponsors of the 
bill, and the questions that they might want to ask, so I am 
going to start with Mr. Hefley. Joel, if you have got questions 
of Mr. Carlino or of Drs. Waddell or Roscoe, then please feel 
free to do that, and then we will go on.
    Mr. Hefley. Well, I know we are limited on time, and I 
won't take much time. Mr. Carlino, again thank you for your 
patience, and you have been very helpful in helping us craft 
this piece of legislation. Your suggestions that you made, we 
would like to address, so we will continue to work with you. 
Particularly the retroactivity is something that we want to 
make doubly sure does not affect existing heritage areas in a 
negative way, so please help us with that.
    Mr. Carlino. Thank you. I will do that, and I appreciate 
that, Congressman.
    Mr. Hefley. With that, Mr. Chairman, I will yield back. I 
know we are on a real time schedule.
    Mr. Radanovich. Forgive me, but I appreciate that, and 
thank you, Mr. Hefley. Mrs. Christensen? Shall we defer to Mr. 
Clyburn?
    Mrs. Christensen. Yes, I will yield some time to Mr. 
Clyburn.
    Mr. Clyburn. Mr. Chairman, Madam Ranking Member, this may 
come as a big surprise to you, but I really would like to take 
my time to say thank you to Dr. Waddell and Dr. Roscoe, both of 
whom have been very, very much aware of how important this 
program is and has been. And I would like to emphasize one 
thing that Dr. Roscoe mentioned, and that is that what we 
attempted to do with this legislation was to continue a policy 
put in place by the previous Bush administration and the Reagan 
administration. What Ms. Stevenson said here today is a 
tremendous departure from the past three administrations, and I 
would hope that will not hold. But I really want to say to Mr. 
Hefley how much I appreciate his attempts to bring some 
standards to the heritage areas' legislation.
    South Carolina, as you know, is one of the original 13, and 
of course there is a lot of heritage in that State. In fact, 
when we established the South Carolina heritage corridor, then 
governor of South Carolina, David Beasley, has said that that 
legislation would bring an additional 700,000 tourists to South 
Carolina annually, and we used the old Hamburg-to-Charleston 
railroad to establish that corridor, and I want you to know 
that--and I think I read in my history at one point that the 
old Best Friend locomotive ran on that railroad, and I want to 
say to you that that railroad, that corridor, is not in my 
district. But South Carolina is important to me; history is 
important to me; heritage is important to me. And so I 
sponsored that legislation because I knew what it would do to 
the heritage and the culture of that state, irrespective of the 
fact that it was not in my congressional district.
    And so your legislation is very, very important to me, and 
I would hope that we can work together to address the issues 
that are raised here today, because that to me is what the 
country is all about.
    Thank you so much, Mr. Hefley, for introducing the 
legislation.
    Mr. Hefley. Well, thank you for your kind words. And 
although I am not from South Carolina, we love South Carolina 
and vacation there every year at Edisto Island south of 
Charleston.
    Mr. Clyburn. That is in my district.
    [Laughter.]
    Mr. Hefley. Well, for a week each year you are my 
congressman.
    Mr. Clyburn. Very good.
    Mr. Radanovich. I want to make sure everybody gets their 
opportunity.
    Mrs. Christensen. I just had some comments. I want to thank 
the panelists as well, Dr. Roscoe also, for reminding us how 
far back this goes, and this is not a partisan issue, as it 
should not be. And Dr. Waddell for adding--you know, we realize 
the importance of preserving the structures, of making them 
available for our students, enhancing the educational 
environment, but also the economic value to the communities, 
which is something that was not brought up. And, Mr. Carlino, 
thank you for coming back again, and not only for that, but 
just for the input that you are providing into the legislation. 
I am looking at hopefully doing a heritage site, heritage area 
in my district, and we really appreciate your input.
    Mr. Carlino. Thank you, Mrs. Christensen.
    Mrs. Christensen. Thank you.
    Mr. Radanovich. Thank you. Mr. Kildee, any comments?
    Mr. Kildee. I just thank the panel. I had a conflict in 
schedule today, but thank you very, very much for your 
testimony.
    Mr. Radanovich. Thank you. Mr. McGovern?
    Mr. McGovern. I just want to briefly thank Dr. Roscoe and 
Dr. Waddell for their testimony, and I support Mr. Clyburn's 
legislation. And Mr. Carlino, I have three questions I want to 
put to you. You are not going to be able to answer them, but 
maybe you could submit the answers in writing for the Committee 
for the record.
    Mr. Carlino. Absolutely.
    Mr. McGovern. You touched on some of these things in your 
testimony, but I think they are important to kind of clarify 
for the record.
    First, with regard to H.R. 2388, you know, what is the 
effect of changing the current system of direct appropriations 
to national heritage areas to a grant system of projects 
prioritized by the governors and approved by the Secretary? You 
touched on it a little bit. I would appreciate a more kind of 
detailed response.
    Second, is the proposed amount in the bill of $10 million 
per year adequate for an annual national heritage area program?
    And thirdly, what is going to be the effect on the local 
management and the community partners in the national heritage 
area if this bill passes?
    And if we did not have a vote, I would like to sit and hear 
your answers, but I think it would be helpful to the Committee 
if we could get those responses from you, which I think would 
be very important.
    Mr. Carlino. I would be happy to do that and, Mr. Chairman, 
if anyone else has questions, I would be happy to answer them.
    Mr. Radanovich. Absolutely. In fact, I ask unanimous 
consent to allow 30 days for written testimony for answers for 
these and other testimony that might be written regarding both 
these bills. If there is no objection, so ordered. And finally, 
Ms. Johnson, thank you for joining us.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman and 
distinguished members of this Committee. I appreciate this 
hearing. I am very supportive of this legislation. As Chair of 
the Congressional Black Caucus, I want to say that on behalf of 
the Caucus, we all support it. Not all of us are products of 
historically black colleges and universities, but we know their 
value. My grandmother and her sisters and one of my sisters and 
our brother are products, and it goes to indicate just how old 
they are and how much they are still very current and needful 
to our population.
    Thank you so very much.
    Mr. Radanovich. Thank you very much. And Dr. Roscoe, Dr. 
Waddell, and Mr. Carlino, thank you very much for attending 
this hearing. And with that, the hearing is ended.
    [Whereupon, at 12:33 p.m., the Subcommittee was adjourned.]
    [A statement submitted for the record by Annie Clay Harris, 
Executive Director, Essex National Heritage Area follows:]
    [Responses to questions submitted for the record follow:]

  Statement of Annie Clay Harris, Executive Director, Essex National 
                             Heritage Area

    Chairman Congressman Radanovich and distinguished members of the 
Subcommittee on National Parks, Recreation and Public Lands, thank you 
for asking me here today to testify on H.R. 2388 an Act ``to establish 
the criteria and mechanism for the designation and support of national 
heritage areas.'' I regret that I am unable to appear before you due to 
the postponement of this hearing following the acts of terror 
perpetrated against the United States on September 11 and followed by 
the further disruptions that closed the hearing room on October 18. I 
am honored to be asked to present testimony to this subcommittee and 
regret that I cannot do so in person as I had planned on the two 
previous hearing dates. In light of the extremely unfortunate and 
unusual events of the last month, I have added to my original testimony 
a brief summary of the key points that I would like to bring to the 
committee's attention.
Executive Summary:
    The National Heritage Area program provides the National Park 
Service with a unique opportunity to preserve and enhance thousands of 
important historic, cultural and natural resources at a fraction of the 
cost of a traditional national park. Designated by Congress, the 
National Heritage Areas are ``partnership parks'' between local citizen 
organizations and the National Park Service. The twenty-three National 
Heritage Areas that exist today provide some of the best examples of 
public-private partnerships in this country and serve to build 
community spirit at a time when it is most needed.
    The key to their success lies in the close working relationship 
that is established between each heritage area and the local/regional 
units of the National Park Service. The success of the National 
Heritage Areas is due to the immediacy and accountability that occurs 
because local management entities are empowered to take action under 
the guidance and oversight of the National Park Service. Through this 
unique relationship, the preservation of nationally significant 
historic and natural resources is performed by local organizations; 
federal funds are matched and are usually far exceeded by non-federal 
funding; educational and interpretation programs based on Park Service 
themes are enhanced by local educators; and important cultural 
resources are saved for future generations.
    HR 2388 would radically change this system. This bill creates a 
different method for designating new areas and for funding both new and 
old areas. It requires that a ``preponderance'' of local units of 
government, the chief executive officers of the states, and the 
Secretary of the Interior play new, expanded roles in establishing and 
approving Heritage Area management plans and in determining the funding 
for all heritage areas existing and new. It will sever the direct 
relationship that now exists between legislative authorization, Park 
Service oversight and individual heritage area's plans and programs. 
The initiative will be moved away from the local citizens who must 
perform the work and raise the non-federal matching funds. Instead 
program and funding decisions will be made by governmental entities 
that are empowered to decide but that do not have the means or mandate 
to perform the implementation. If the local entities become isolated 
from the priority setting process then community support, matching 
funds and the essential public-private partnerships will disappear.
Testimony:
    My name is Annie Clay Harris and I am the Executive Director of the 
Essex National Heritage Area, a Congressionally designated heritage 
area located in Essex County, Massachusetts. For the past 12 years I 
have worked with businesses and local governments to promote community 
based, economic development partnerships. For several years, I directed 
the highly successful public-private Salem Partnership located in the 
City of Salem, Massachusetts and more recently I have headed up the 
activities of the Essex National Heritage Area. I also serve as the 
volunteer treasurer of the Alliance of National Heritage Areas. Prior 
to these positions, I worked for 16 years in real estate development 
and finance. Based upon these years of experience, I can say without 
reservation that I believe that partnerships between businesses and 
non-profits, between local governments and social organizations, 
between large Federal agencies like the National Park Service and 
grassroots community groups are essential to building and maintaining a 
civil society in America. Seldom can one sector of our society 
accomplish as much as a partnership of organizations. The Federal 
government and local municipalities, corporations and business 
organizations, regional arts associations and local non-profit grass-
roots groups - all offer important perspectives and contributions. 
Working together small initiatives can lead to big changes.
    Clearly, this point of view underlies many of the programs 
supported by President Bush and this administration. His faith-based 
initiative is just one example of the concept that small, strategically 
placed, public investment in local, grassroots organizations is one of 
the most effective ways to bring about change. In my experience, 
national heritage areas are another excellent example of this idea in 
action.
    In its most basic form, a national heritage area is a ``partnership 
park,'' a close relationship between the National Park Service, 
community based organizations and local government. Heritage areas are 
often able to help the Park Service meet its mission without requiring 
that new lands be acquired or new personnel be hired. In the National 
Park System Advisory Board's recent report ``Rethinking the National 
Parks for the 21st Century'', the Board directs the National Park 
Service to: ``embrace its mission, as educator...encourage the study of 
the American past,...advance the principles of sustainability,...[and] 
encourage collaboration among park and recreation systems at every 
level--Federal, regional, state and local...'' (pg 3). The report 
specifically recommends that heritage areas are one of the ways to meet 
these goals and states that ``the National Park Service should...foster 
them'' (pg 9). For a fraction of the cost of a federally owned National 
Park, heritage areas can meet many of the goals of the National Park 
Service while helping the Service ``reach broader segments of society 
in ways that make them more meaningful in the life of the nation.'' (pg 
1). If we, as a nation, are serious about preserving our past for our 
future while at the same time remaining fiscally responsible, then the 
future of the National Parks lies in building effective partnerships 
and not in creating new parks.
    Heritage areas are one of the most effective ways to manage 
important historic resources, unique cultural institutions and special 
natural resources for the benefit of the public without incurring 
significant public cost. For example, the Essex National Heritage Area 
was authorized in 1996 and has received $1,000,000 each year for 3 
years. Last year, we matched this federal investment with more than 
twice as much in direct non-federal funding (audited) and more than 
five times as much in indirect investment. Our experience has been 
that, using a small amount of public funding, we can leverage a 
tremendous amount of non-federal investment and produce substantial 
community and economic benefits.
    In addition to leveraging significant non-federal investment, 
National Heritage Areas accomplish a great deal more. Most are actively 
involved in education, in community based economic development, and in 
heritage tourism as well as in preserving our National resources for 
future generations. Again, by way of illustration, let me briefly 
describe some of the programs that the Essex National Heritage Area is 
managing or sponsoring. Essex received federal designation because of 
the three significant historic themes that are represented by hundreds 
of nationally important sites and resources located within this region. 
These include: a great number of 17th century buildings (more first 
period structures than any other region in this Nation); the oldest, 
continuously operating museum in America; and the last remaining 18th 
century maritime complex of wharves, warehouses, and related 
structures. To preserve and interpret this multitude of resources, we 
run a very active annual partnership grants program that has leveraged 
substantial non-federal investment. We provide site based teacher 
training, web-based curriculum development, a summer teacher institute, 
and an after-school program that links new immigrant children to their 
common history. We work to promote cultural tourism and its economic 
benefits by fostering partnerships and cooperative programs between 
small sites and museums. We assist in the preservation of the region's 
important historical records not just because they are historically 
valuable but also because access to records is crucially important to 
municipal governments, to the legal system and to the medical 
community. We seek ways to reach agreement on open space conservation 
while recognizing the need to build affordable housing, and we work to 
preserve scenic by-ways while supporting the economic necessity of 
growth and development. We celebrate the contributions of our community 
leaders and the volunteers who donate so much time to improving the 
quality of our lives. We do all this in consultation with the National 
Park Service and with their oversight, and we do it at a fraction of 
what it would cost if we were a ``unit'' of the National Park system.
    Is this true of all the existing national heritage areas? Are they 
all running successfully? The short answer is no. A few of the 23 
nationally designated areas are still not fully operational. To be 
successful heritage areas must be managed by dynamic, dedicated local 
partnerships and, like marriages, partnerships are unique to each area 
and its people. Some national heritage areas have established more 
effective relationships than others. However, the real question that 
needs to be asked here today is this: what is the public cost for those 
areas that are not working up to their potential yet? The cost is very 
little because each federal dollar that is spent by the National Park 
Service in a heritage area must be matched with non-federal funds. 
Those areas that do not have strong local support and have management 
problems cannot generate the non-federal match and, therefore, are not 
eligible for the federal funding. To date, I am only aware of two or 
three areas that are struggling and to the best of my knowledge none of 
them have received funding under the current heritage partnership 
program. Altogether, in fiscal year 2001, the 23 existing national 
heritage areas received on average only $462,000 from the National Park 
Service's ``Heritage Partnership Programs'' while they leveraged 
millions of dollars in non-federal matching funds. This is an excellent 
return on investment by any standard.
    Heritage areas are effective economic development tools and they 
support the goals of the current administration. Therefore, I applaud 
the purpose of HR 2388. Its goals--``to provide for recognition of 
areas; to encourage...governments, nonprofit organizations, and the 
private sector to...conserve and manage resources; and to encourage...a 
broad range of economic opportunities'' and to do all this by 
establishing rational criteria and defining the responsibilities of the 
Federal government--are very worthwhile.
    In light of the success that we have had in the Essex National 
Heritage Area, I will outline some of the factors that have been 
crucial to our achievement and that I believe should be included in any 
discussions about national heritage areas:
    1. Annual cooperative agreements between the National Park Service 
and individual heritage areas ensure the best public oversight. Almost 
all of the existing heritage areas receive federal funds from an annual 
appropriation. These funds are disbursed to the areas by the National 
Park Service through cooperative agreements. Cooperative agreements not 
only establish an area's obligations to the Park Service, but also 
provide an outline of the area's annual work program. Through these 
contracts, the National Park Service units that are closest to the 
heritage area are able to closely monitor their heritage area partners. 
Additionally, these cooperative agreements foster partnerships between 
the Park Service and the area that usually extend far beyond their 
specific contractual obligations. In the Essex National Heritage Area, 
I am in weekly contact with our local National Park Service 
superintendent and his staff. He serves as the National Park Service 
representative to the Essex National Heritage Commission, and he 
participates in all of the major decisions in our area. Our close 
contractual and working relationship maximizes the National Park 
Service's oversight of our heritage area. HR 2388 changes the method of 
funding heritage areas to a system of grants that are prioritized by 
the Secretary of the Interior in consultation with the chief executive 
officer of the state. It appears that this grant system may make it far 
more difficult for the National Park Service to tailor the heritage 
area's work program to meet their mission. I believe that the current 
system of cooperative agreements is a crucial element in the success of 
the program. These agreements enable those with local knowledge and a 
true understanding of the most effective ways to stimulate private 
investment to set the area priorities through a process of negotiation 
and trust.
    2. The annual federal funding to the national heritage area program 
should be expanded. There is no question that the national heritage 
area program is a success. In addition to the Essex National Heritage 
Area, other areas such as Rivers of Steel National Heritage Area, Ohio 
& Erie Canal National Heritage Corridor, Hudson River Valley National 
Heritage Area, John H. Chafee Blackstone River Valley National Heritage 
Corridor and South Carolina National Heritage Corridor stand as 
remarkable examples of the success that these public-private 
partnerships can achieve. Not only do these areas produce substantial 
social and economic benefits, but they also further the National Park 
Service's mission. Therefore, I urge this committee to expand the 
federal funding to this program. By limiting funding to national 
heritage areas to an annual maximum of $10,000,000 and including the 
existing areas as well as new ones under this cap, this Bill sets the 
funding limit lower than the program's current level.
    3. The period of eligibility during which a heritage area can 
receive funding should be at least 15 years. The current legislation 
for most heritage areas authorizes them to receive funding over a 15 
year period. This relatively long period of time is essential to 
building effective partnerships. There needs to be time to allow 
effective programs grow from the ground up; time to include multiple 
partners and their various points of view; and time to listen and 
develop relationships of trust. Equally important, a longer cycle for 
``seed'' funding often leads to increased private investment and 
foundation support because these sources typically prefer to fund after 
the first ``seed'' investments have produced tangible results. A longer 
eligibility period, also, means that heritage areas that are still 
working on their local partnerships often choose to seek less funding 
in the initial years so that they have more time to improve their 
management skills and build their organizational relationships. 
Conversely, shorter grant eligibility periods may result in areas 
applying for the federal grants before they are ready, a process that 
can hinder rather than help build the success of new areas.
    4. Federal oversight and financial accountability are already built 
into heritage area legislation; NPS contracts and OMB requirements are 
effective methods to ensure that the federal investment is protected. 
At the Essex National Heritage Area, every year we file quarterly and 
annual reports with the National Park Service as part of our regular 
reporting procedures under the cooperative agreement. Each year, since 
our area first received federal funding we have also undergone a 
rigorous federal audit following the requirements of the Office of 
Management and Budget's (OMB) Single Audit Act Amendments of 1996 and 
OMB Circular A-133 to ensure that we are in compliance with all 
applicable federal laws and regulations. Furthermore, to ensure regular 
public involvement, we hold public commission meetings at least twice a 
year and frequent sub-committee and informational meetings. All of our 
business is transparent to the public and every grant made to us or by 
us is for the benefit of the public and the purpose it was intended. 
However, the language in HR 2388 stating that each grant may ``result 
in a right of the United States to (seek) compensation from the 
beneficiary of the grant...(and) a schedule for such 
compensation''(Section 6 (f)) appears to be an open invitation for 
unscrupulous litigation and unreasonable damages. For example, the 
Essex National Heritage Area makes small ``seed-money'' grants to 
organizations seeking to rehabilitate historic structures for public 
use. While these properties are currently in public use, we realize 
that in the future, fifteen or twenty years from now, the use of these 
properties may change, and our grant recipients may be forced to sell 
or reprogram the activities at these sites. This new language may have 
a chilling effect on owners, matching partners and, most especially, on 
other funders who may decide that they do not want to participate in 
any projects with the heritage area if they might be held liable in the 
future to pay compensation to the US Government.
    5. Heritage areas are successful when they have broad-based, 
community support. Extensive public involvement and support from 
citizens and local units of government are critical components to 
achieving successful partnerships in the heritage areas. However, 
attempting to achieve unanimous consensus can prevent the creation of 
successful partnerships. In fact, a variety of opinions and points of 
view within a framework of cooperation are key elements in creating and 
sustaining these vital heritage area partnerships. Furthermore, because 
heritage areas do not have any regulatory powers and cannot impinge on 
private property rights or local and state governments' abilities to 
govern, they can operate successfully even before their benefits are 
fully understood by all of their citizens. Broad-based support from 
local residents and units of government is very important, but trying 
to achieve unanimous consensus can be counterproductive. There are some 
phrases in this Bill such as ``endorsement by each participating unit 
of government'' (Section 8) that I believe could deter the successful 
development of new areas, and trying to achieve this level of agreement 
could result in no action.
    6. This Bill should exclude the existing 23 heritage areas. The 
vast majority of the existing heritage areas already have in place 
complex networks of partnerships with community organizations, local 
units of government and private funders. In many cases these 
partnerships have taken years to nurture. Including existing areas 
within this Bill will change the way they are currently doing business 
and put at risk the non-federal funding that is a result of these 
relationships. Therefore, I urge caution when looking at changing the 
rules under which the existing areas operate. Partnerships, non-federal 
investment and matching funds, community resources and local units of 
government do not respond quickly to change. The tremendous leverage 
that most of the heritage areas have achieved--matching their federal 
appropriations with millions of dollars in non-federal investment--
could be severely set back if the rules are changed in mid-stream.
    In closing, I would like to thank Congressman Hefley for his 
determination and foresight in proposing legislation to define the 
parameters of the National Heritage Areas Program. The goals stated in 
this legislation are of utmost importance to foster effective 
partnerships between the National Park Service and the citizens of this 
country. The heritage area program is a very effective tool that will 
greatly assist the National Park Service in meeting its goals for the 
21st century. While I agree with the purposes stated in this Bill, my 
experience in the Essex National Heritage Area leads me to urge you to 
consider some of the modifications that I have outlined above.
    I would like to thank Chairman Radanovich and this subcommittee for 
the opportunity to testify on my experience in the Essex National 
Heritage Area and the success that we have achieved in our working 
partnership with the National Park Service.
                                 ______
                                 

Response to Questions Submitted for the Record from August R. Carlino, 
President & CEO of Steel Industry Heritage Corporation and Chairman of 
                the Alliance of National Heritage Areas

Questions from Hon. James P. McGovern
    What is the effect of changing the current system of direct 
appropriations to the National Heritage Areas to a grant system of 
projects prioritized by the governors and approved by the Secretary?
    Answer: All NHAs are created through a public process that requires 
a plan to be submitted that the Secretary of Interior and Congress 
approves. This plan includes a list of projects, complied with partners 
and communities, to be completed over the life of the plan, along with 
a proposed funding outline for the projects. Each year the NHA 
management entity prioritizes its projects for the coming year and 
makes those projects a part of the request submitted directly to the 
Member(s) of Congress representing the NHA. The communities and local 
partners often inform their individual Member of the project and the 
specific funding needs. Typically then the Member, having evaluated the 
support in the community for the projects seeking funds, will request 
an earmark in the Interior Appropriations bill for the National 
Heritage Area to carry out the specified projects.
    The proposed change would institute a bureaucratic process that 
would require the NHAs to submit projects each year to the governor of 
their state--which, if he/she has more than one NHA in the state, will 
prioritize the projects and then submit them to the Secretary. The 
Secretary will then approve a selected list of projects. This process 
would slow the funding of NHA projects down to a crawl, and would 
remove from the community the direct relationship of the constituents 
to their members in asking for funds. The members would have no input 
into what projects get funded in their districts, and NHAs would be 
hamstrung by not being able to raise necessary match, as they would not 
know which projects were going to receive funds until the process 
played out.
    Even more detrimental to the process would be the imposition, 
through the proposed language, of decisions being made by an employees 
in the Department who have absolutely no knowledge or understanding of 
the project, the community or the specific needs of the NHA. The NHAs 
were created to relieve administrative burdens on the National Park 
Service in the development and implementation of these projects. If the 
NPS were to step in and begin to make these decisions, then the NPS 
would need to have adequate staffing in each NHA, leading to the need 
for hiring more NPS personnel to conduct this work, and expanding the 
size of the Federal government.

    Is the proposed amount in the bill of $10 million per year adequate 
for an annual NHA program?
    Answer: No. The Department of Interior Appropriations Bill for 
Fiscal Year 2002 as passed by the Congress provides $13.2 million for 
the designated NHAs. If the H.R. 2388 were enacted as written, that 
amount would be cut by over $3 million, and each NHA might receive less 
funding than it currently does. This bill also creates a system by 
which more NHAs could become designated, but the level of authorized 
funding for the programs would remain constant. If new NHAs were 
authorized and the amount of appropriations was not increased to meet 
those new obligations, the program would become crippled and die as 
less money would be available to each individual NHA each succeeding 
year.
    It is the position of the Alliance of National Heritage Areas that 
the legislation should limit the funds available to each NHA to the 
current policy of $1 million per year. Congress, based upon the track 
record of the NHA in previous years, should make the final decision as 
to whether a NHA should receive the full appropriation.

    What is going to be the effect on the local management entity and 
the community partners in an NHA if this bill passes?
    Answer: All control for project development and funding within an 
NHA would rest in the hands of the National Park Service and the 
governors of each state. The NHA and the communities, as the intended 
stewards for the projects, would have little role, if any. NHAs work 
because they create partnerships through the management entity, with 
the community, local governments, the states and the NPS. There is a 
role for NPS in NHAs, but even the NPS would admit that they see 
themselves as facilitators and partners, not as the body responsible 
for the day-to-day management of the NHA. If the role of the NPS were 
to change in the NHAs as proposed in H.R. 2388, the NPS would need more 
staff assistance to perform the added work, increasing the size of the 
Federal government, and decreasing the responsibility of the management 
entity and the local partners.
                                 ______
                                 

Response to Questions Submitted for the Record from Annie Clay Harris, 
            Executive Director, Essex National Heritage Area

Questions from Hon. James P. McGovern
    Question: What is the effect of changing the current system of 
direct appropriations to the NHAs to a grant system of projects 
prioritized by the governors and approved by the Secretary?
    Answer: The effect will be to stifle the local heritage area 
partnerships and to restrict the amount of non-federal funds that they 
can leverage. The local management entities will be forced to change 
priorities from year to year, never knowing ahead of time which grants 
will approved for which projects. Under the current system most NHAs 
are allowed to seek up to $1.0 million annually in appropriations. 
Within this ceiling they are able to plan their yearly work program 
according to the priorities of their partners, to their ability to 
raise non-federal matching funds and to the compatibility of their 
programs with the goals and oversight of the National Park Service. A 
competitive grant system such as the one proposed in HR 2388 will take 
the decision making away from the local entities and give it to the 
state and federal officials. It is the antithesis of the cooperative 
public-private partnerships that NHAs are so effective in building.

    Is the proposed amount in the bill of $10 million per year adequate 
for an annual NHA program?
    Answer: No. This amount reduces the program by 24% from its current 
level of $13.2 million. Since the bill is designed to create new NHAs 
as well as to regulate existing ones, both new and existing NHAs will 
be severely under-funded if this budget cap is approved.

    What is going to be the effect on the local management entity and 
the community partners in an NHA is this bill passes?
    Answer: If this bill passes in its current form, it will greatly 
inhibit the highly effective local public-private partnerships that 
form the core of the NHAs. These partnerships, and the non-federal 
funding and projects that they leverage, are the most successful aspect 
of the NHAs. This bill takes the management and financial control away 
from the local entities and community partners and gives it to the 
governors, the National Park Service and the Secretary of the Interior. 
It substitutes a complex system of competitive grants, prioritized by 
remote state and federal executives, for the present system that allows 
for direct negotiations between the National Park Service and the NHAs 
management entity and local partners.

                                   - 

</pre></body></html>
